<html>
<title> - [H.A.S.C. No. 112-11] NATIONAL DEFENSE AUTHORIZATION ACT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 112-11]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2012

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

             BUDGET REQUEST FROM THE DEPARTMENT OF THE ARMY

                               __________

                              HEARING HELD

                             MARCH 2, 2011


                                     
[GRAPHIC] [TIFF OMITTED] CONGRESS.#13

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES





                  U.S. GOVERNMENT PRINTING OFFICE
65-111                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            GABRIELLE GIFFORDS, Arizona
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROB WITTMAN, Virginia                CHELLIE PINGREE, Maine
DUNCAN HUNTER, California            LARRY KISSELL, North Carolina
JOHN C. FLEMING, M.D., Louisiana     MARTIN HEINRICH, New Mexico
MIKE COFFMAN, Colorado               BILL OWENS, New York
TOM ROONEY, Florida                  JOHN R. GARAMENDI, California
TODD RUSSELL PLATTS, Pennsylvania    MARK S. CRITZ, Pennsylvania
SCOTT RIGELL, Virginia               TIM RYAN, Ohio
CHRIS GIBSON, New York               C.A. DUTCH RUPPERSBERGER, Maryland
VICKY HARTZLER, Missouri             HANK JOHNSON, Georgia
JOE HECK, Nevada                     KATHY CASTOR, Florida
BOBBY SCHILLING, Illinois            BETTY SUTTON, Ohio
JON RUNYAN, New Jersey               COLLEEN HANABUSA, Hawaii
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
                 John Wason, Professional Staff Member
                  Doug Bush, Professional Staff Member
                     Megan Howard, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Wednesday, March 2, 2011, Fiscal Year 2012 National Defense 
  Authorization Budget Request from the Department of the Army...     1

Appendix:

Wednesday, March 2, 2011.........................................    47
                              ----------                              

                        WEDNESDAY, MARCH 2, 2011
FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
                         DEPARTMENT OF THE ARMY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     3

                               WITNESSES

Casey, GEN George W., Jr., USA, Chief of Staff, U.S. Army........     9
McHugh, Hon. John, Secretary of the Army.........................     5

                                APPENDIX

Prepared Statements:

    McHugh, Hon. John, joint with GEN George W. Casey, Jr........    55
    McKeon, Hon. Howard P. ``Buck''..............................    51
    Smith, Hon. Adam.............................................    53

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Smith....................................................   117

Questions Submitted by Members Post Hearing:

    Mr. Akin.....................................................   124
    Mr. Bartlett.................................................   122
    Mr. Brooks...................................................   137
    Mr. Coffman..................................................   131
    Mr. Conaway..................................................   130
    Mrs. Hartzler................................................   133
    Mr. Loebsack.................................................   123
    Mr. McKeon...................................................   121
    Mr. Owens....................................................   124
    Mr. Rigell...................................................   133
    Mrs. Roby....................................................   137
    Mr. Runyan...................................................   134
    Mr. Ruppersberger............................................   126
    Mr. Shuster..................................................   129
    Mr. Smith....................................................   122
    Mr. Turner...................................................   127
    Mr. West.....................................................   136
    Mr. Wilson...................................................   125


FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
                         DEPARTMENT OF THE ARMY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, March 2, 2011.
    The committee met, pursuant to call, at 10:04 a.m. in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Committee come to order. Good morning. Thank 
you for joining us as we consider the fiscal year 2012 budget 
request for the Department of the Army. Secretary McHugh, 
General Casey, thank you both for being here. As I have said 
before, we are very fortunate to have both of you serving our 
country.
    Secretary McHugh, once again you find yourself in the hot 
seat. Nine-term member of Congress and this committee's former 
ranking member. I am sure glad you moved over there. General 
Casey said, ``Me too.'' So that is----
    Secretary McHugh. Mr. McKeon, not more than I.
    The Chairman. I don't know--oh.
    Secretary McHugh. I guess I should say I am glad as well. 
So it is all worked out fine. Thank you, Mr. Chairman.
    The Chairman. Without a doubt, whether a member of this 
committee or as the 21st Secretary of the Army, you are a 
staunch advocate for soldiers and their families. We on the 
Armed Services Committee are very proud of you and of your 
achievements and the things that you are doing there and we 
thank you for your public service.
    General Casey, you are also no stranger to this committee. 
I want to take a moment to mention that this will be your last 
Army posture hearing. Thirtieth vice chief of staff, commander 
multinational force Iraq, 36th chief of staff, over 40 years of 
selfless military service to this Nation. Pretty good for a guy 
that wasn't going to go into the Service.
    I know you still have much that you want to accomplish in 
your time as Army chief of staff, but I thank you and your 
wife, Sheila, for your service to our country, for the 
leadership that you have provided for our Army and for all of 
the soldiers that have served under you during those 40 years 
and the ones that you served under. Great tradition. Thank you 
very much.
    General Casey. Thank you, Chairman.
    The Chairman. I would like to mention that the ranking 
member and I recently had the pleasure to visit with soldiers 
at Fort Lewis in Mr. Smith's District and the National Training 
Center in my district along with several members of our 
committee. While at the NTC [National Training Center], we were 
able to observe the 3rd Brigade, 25th Infantry Division as they 
trained for their upcoming deployment to Afghanistan.
    I want to mention that one of the things that I have been 
very concerned about is IEDs [Improvised Explosive Devices] and 
I thought we just weren't doing enough no matter what we are 
doing, but I was very impressed both there and at Fort Lewis 
where we observed the 3rd and 4th Stryker Brigade Combat Teams 
for the 2nd Infantry Division. Excellent training they were 
getting to prepare them for IEDs and the things that are being 
done to interdict the--get rid of the financier or get rid of 
the builder or all the things that are being done by other--the 
Marines, also.
    We went to the Mountain Warfare Center in the Sierras and 
saw them and it was a great visit, but the soldiers that we saw 
training were getting excellent training and I am sure it will 
save lives as they arrive in Afghanistan. It is on trips like 
these and similar trips to Iraq and Afghanistan that we are 
reminded why hearings such as this one are so important because 
you just don't go to war with the Army you have. You go to war 
with an Army who was resourced, hopefully properly, with 
personnel and equipment provided by the United States Congress, 
by the United States people.
    As our former chairman, the great Ike Skelton used to say, 
``The buck stops here,'' and I am sure he wasn't talking about 
me. To that end, I remain concerned about the reduction of an 
additional $78 billion from the Department's funding top line 
including the $13 billion cut in 2012 ultimately leading to a 
zero-percent real growth within 3 years. The Army's share of 
the Department's efficiency savings is $29 billion including 
$2.7 billion in the 2012 budget request.
    We are told that the Army has been allowed to reinvest all 
of the $2.7 billion. However, when you compare the Army's base 
budget and the supplemental budget request from 2011 to 2012, 
this budget request is almost $30 billion less.
    I understand that the primary reason for the reduction is 
based on the withdrawal of U.S. forces from Iraq by this year 
by the end of December. Clearly, there was a need to move 
overseas contingency operations funding into the base budget, 
but we need assurances that the Army was able to migrate 
everything they needed from the supplemental into the base, 
particularly as it relates to taking care of soldiers and the 
reset of equipment.
    Likewise, as Congress must learn more about the proposed 
end strength reductions for the Army, the Army has borne the 
brunt of two wars for the past decade and hasn't reached its 
objectives for Active Component dwell time of one-to-three. In 
fact, the proposed end strength reductions appear to force the 
Army to settle for only a one-to-two dwell time. I would like 
to know why.
    In short, I cannot in good conscience ask the Army to do 
more with less. Again, I thank both of you for your service to 
our country and for being here today. Ranking Member Smith.
     [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 51.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I too want to echo your 
comments in support of--and thanks for--our two men testifying 
today. Secretary McHugh, it is a great honor serving with you 
on this committee for a long time. It is great to have you over 
there. You certainly understand this committee and you 
understand the Pentagon as well. You are in the perfect 
position. You have been great to work with as Secretary of the 
Army and as a member of the committee, and it is a real asset 
for our country to have you there. It is great to see you back 
here today.
    And General Casey, congratulations on a great, great term 
of service to your country. It has been great working with you. 
I know you will miss these hearings more than anything, but we 
appreciate your hard work on behalf of the Army and yes, I say 
that facetiously, but appreciate the work you do in presenting 
this. And it has been a great relationship, I believe, between 
this committee and yourself. You have always done a great job 
of reaching out to individual members, making sure that we are 
informed and, you know, giving us a chance to understand the 
issues that are so important.
    So you will be missed and we appreciate your great service 
to your country. And also as I said, your work with this 
committee specifically has been outstanding and I have 
appreciated it as I know other members have as well. And as we 
go forward into this posture hearing, there are a lot of 
transitions coming. As the chairman mentioned, there is talk 
about what the future of force structure should be as drawdowns 
continue in Iraq and hopefully at some point begin to happen in 
Afghanistan.
    What does that mean for the Army? But I want to assure you 
and all those listening to this committee--focusing on the fact 
that your Army is in the fight and protecting those who are in 
the fight is our top priority. We still have, you know, 50,000 
troops overall in Iraq and in Afghanistan we still have 100,000 
and they are, in many cases, in the midst of a very, very 
difficult fight and this committee's top priority is to make 
sure that they are equipped and have the support that they need 
to prosecute that fight to the best of their ability.
    Now, the chairman mentioned what is, you know, our top 
priority and that is IEDs. That still causes the most 
casualties over there and I do want to also compliment both of 
you for the work you have done, you know? Every Army base that 
I have been to, you know, they take you to the IED training and 
they are everyday learning directly from what is happening over 
there taking it back, training the soldiers so that they will 
be best prepared when they get over there to deal with that 
threat. It is a constantly evolving threat, but you are 
evolving with it in a way that has unquestionably saved lives 
of our soldiers.
    And we appreciate that work and this committee--well, 
again, anything we can do to help in that area we want to do. 
We know how important it is. And then the major challenge going 
forward is the transition as we get back, as we begin to draw 
down. What does that mean for the size of the force? I think 
the chairman asks the appropriate questions. What is the 
mission set that is going to be asked of our soldiers and is 
the force the proper size to meet that? How do we get back into 
a more regular training mission for all the threats that come 
at us instead of just sort of responding as quickly as we have 
to the immediate threats?
    Now, what should that look like? It is not easy to tell. 
How do we get the dwell times back up so we can deal with some 
of the stress on the force that I know, General Casey, you have 
talked about a great deal. Those are questions we need to 
answer and we look forward to hearing from you today on how we 
should go about meeting those threats.
    In particular, we are also focused on PTSD [Post Traumatic 
Stress Disorder] and traumatic brain injury, some of the things 
that have more long-term impacts. How are we preparing to do 
that? And I will say that when I was down at Fort Hood a few 
weeks ago, I was very impressed with the overall preparation 
for how you deal with the stresses and strains on the force. I 
think you are making a great deal of progress on that and we 
look forward to being as supportive as we possibly can.
    And lastly is the modernization of the force. I know we had 
some significant struggles with the future combat systems which 
I believe we are pulling our way out of and I thank both of you 
for your leadership on that. We do need to update, modernize 
and better equip our infantry brigades. Now, the core of that 
is the network.
    How do we make sure that the soldiers get the information 
when they need it? How can we give them total situational 
awareness? You have to have the proper network to do that. I 
think we have learned a lot of hard lessons in the acquisition 
process about how to do that better, how to acquire equipment 
in the future, hopefully in a more cost-effective manner that 
gets there more quickly.
    But I believe we are making progress on that. I thank both 
of you. I also thank General Crowley, whom I have worked with 
very closely on some of these issues, for making that progress.
    I look forward to continuing to support that effort because 
unquestionably, you know, information warfare places a great 
deal more challenges on all of our services, but on the Army in 
particular to make sure they have the best equipment when they 
need it. You can't go through a 2-year--the normal acquisition 
process in some cases to make sure you have that equipment 
because by the time you get to the end of it, it is already 2 
or 3 years out of date.
    So we have learned some good lessons there. I think we are 
making progress. And again, I look forward to working with you 
and this committee as always stands ready to support you in any 
way that we can. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 53.]
    The Chairman. Thank you. The Honorable John McHugh, 
Secretary of the Army, and General George W. Casey, Chief of 
Staff of the U.S. Army. Mr. Secretary.

      STATEMENT OF HON. JOHN MCHUGH, SECRETARY OF THE ARMY

    Secretary McHugh. Thank you very much, Mr. Chairman, 
Ranking Member Smith, and distinguished members of--from a 
somewhat prejudiced view what I believe is certainly the 
leading committee in the United States House of 
Representatives. It is great to be back here, although I 
enjoyed the view sitting up there looking down here better. It 
is terrific to see so many not old, but longstanding friends 
and colleagues and to see so many new members here who have 
stepped forward to serve on this great committee, and I commend 
them for that action and look forward to working with them as 
well.
    I should note--on a sad comment. It pains all of us. I know 
that Congresswoman Gabby Giffords is not with us here today. I 
have to tell you from my experience working with her, she was 
one of the most determined and capable legislators in the 
House, but really a tireless champion for the men and women who 
wore the uniform of this Nation.
    And, in fact, she was one of the first members of Congress 
to call me after I had been confirmed into this post and she 
offered her congratulations, but she just happened to take the 
opportunity to talk about the great men and women of Fort 
Huachuca, which is in her district, of course.
    And I remember thinking very clearly that that is Gabby, 
always taking the opportunity to look out for soldiers and 
their families and certainly everyone in the Army family joins 
me in wishing her a speedy recovery and we look forward to 
seeing her back in her rightful place on this distinguished 
committee. And our thoughts and prayers go out as well to those 
innocent victims of that tragic day, and may they quickly find 
peace and comfort in the days ahead.
    If I may, Mr. Chairman, I would like to join with you in 
recognizing this great soldier on my left. As you mentioned, 
this is the last time--at least he hopes it is the last time 
that he will appear before this committee as the chief of staff 
of our great Army. It is a career that has spanned four 
distinguished decades and he has held numerous positions at 
every level, but one thing has remained constant through all of 
those positions. He has done the right thing for our soldiers 
and their families and he has had a tireless determination to 
serve our Nation.
    And I can tell you that over the last nearly 18 months, 
George and I have not only operated as partners, but I think we 
have become close friends in spite of the fact that he is a 
Boston Red Sox fan. So I do look forward to working with 
another exceptional leader, the presidential nominee, General 
Marty Dempsey, should the Senate so concur, but the Army, this 
Nation, and I will truly miss George and Sheila. They are great 
Americans.
    I want to thank----
    General Casey. I thought you were going to propose. I get 
constructive credit for the hearing.
    Secretary McHugh. No, I wasn't, but nice try. I want to 
thank each of you for your steadfast support of our 1.1 million 
soldiers, 279,000 civilians and their families. With the 
leadership and great support of this Congress and particularly 
this committee, America's Army continues to be at the forefront 
of combat counterinsurgency, counterterrorism and security 
assistance operations in nearly 80 countries around the world.
    In Iraq, our soldiers and civilians began one of the 
largest and most complex logistical operations in our Nation's 
history. As we continue to draw down our forces to meet the 
December 31, 2011, deadline, we have already closed or 
transferred over 80 percent of the bases that we maintained to 
the Iraqi authorities. We have reduced the number of U.S. 
personnel by over 75,000 and we have redeployed some 26,000 
vehicles back to other operations.
    Having recently visited Iraq for my 16th time just last 
January, I can validate firsthand the true enormity of the 
retrograde operations and the exceptionally high morale of the 
forces remaining as they continue to advise, assist, and train 
Iraqis to support that still-burgeoning democracy.
    Simultaneous with the drawdown operations, the Army has 
surged an additional 30,000 soldiers to Afghanistan to defeat 
the Al Qaeda terrorist network and the Taliban insurgency. This 
surge enabled our soldiers and our Afghan partners to seize 
multiple sanctuaries in the traditional insurgent heartland of 
Southern Afghanistan.
    Additionally, during this past year, our forces have 
trained some 109,000 Afghan National Army soldiers as well as 
41,000 Afghan National Police, yet overseas contingency 
operations are only one part of the Army's diverse 
requirements. Our soldiers and civilians from all Army 
Components remain committed to protecting our homeland not only 
from the threat of enemies who would harm us, but also from the 
ravages of natural and manmade disasters.
    From National Guard soldiers assisting with drug 
enforcement and border security to the Army Corps of Engineers 
responding to the catastrophic oil spill in the Gulf of Mexico, 
America's Army has been there to support local, State and 
Federal partners in saving, protecting and caring for our 
citizens.
    Clearly, over the last year America's Army has seen 
extraordinary success in one of the most dynamic, dangerous and 
complex operational environments in our Nation's history, and 
yet our challenges have not been reserved solely for combat or 
the protection of disaster relief.
    For just as our soldiers and civilians conducted multiple 
operations here and around the world, the Army simultaneously 
continued its far-reaching efforts to modernize equipment, 
transform units and complete the unprecedented consolidations 
required under the round of base closure and realignment.
    As the Army continues to fight global terrorists and 
regional insurgents, we must be ever mindful of the future and 
future enemies such as--threats and hostile state actors that 
we may well face. It is vital, therefore, that we have a 
modernization program, one that provides our soldiers with a 
full array of equipment necessary to maintain a decisive 
advantage over the enemies we are fighting today and to also 
ensure that we can deter and defeat tomorrow's threats at a 
price that we can afford.
    Our fiscal year 2012 budget request is critical to 
achieving this goal by supporting the extraordinary strides 
being made in the Army state-of-the-art network tactical wheel 
vehicle and combat vehicle modernization programs. Regarding 
the network, we are requesting $974 million in procurement and 
$298 million in research and development for the Warfighter 
Information Network-Tactical, WIN-T, which will become the 
cornerstone of our battlefield communication systems as the 
distinguished ranking member had mentioned.
    This budget request also contains $2.1 billion in 
procurement for joint and combat communication systems 
including the Joint Tactical Radio System better known as JTRS. 
As we look to modernize our wheeled and combat vehicle fleets, 
we are asking for $1.5 billion for Tactical Wheeled Vehicle 
modernization and $1.04 billion in support of the Army's combat 
vehicle modernization strategy including $884 million for the 
Ground Combat Vehicle and $156 million for the modernization of 
the Stryker, Bradley and Abrams programs.
    Along with advances and equipment, the Army is seeking new 
methods to use and secure our scarce energy resources. Clearly, 
future operations will depend on our ability to reduce 
dependency, increase efficiency and use more renewable or 
alternative sources of energy. We have made great strides in 
this area and we intend to do more.
    The Army has established a senior energy council, appointed 
a senior energy executive, created an energy security office 
and adopted a comprehensive strategy for energy security. Based 
on this strategy, we are developing more efficient generators 
and power distribution platforms factoring in fuel cost as a 
part of equipment modernizations in developing a net-zero 
approach to holistically address our installation's energy, 
water and waste needs.
    In May 2010, the chief and I commissioned an unprecedented 
blue ribbon panel review of the Army's acquisition systems from 
cradle to grave. We are currently reviewing the panel's 
insightful report and we will use it as a guide over the next 2 
years to improve the efficiency and effectiveness of the Army 
acquisition process, but we didn't stop there.
    To ensure that we purchased the right equipment to meet the 
needs of our soldiers, we instituted a series of capability 
portfolio reviews to examine all existing Army requirements and 
terminate programs that we judged to be redundant, didn't work 
or which are just too expensive.
    These broad-based reviews have already helped us to 
identify key gaps and unnecessary redundancies while promoting 
good stewardship of our Nation's resources. We remain committed 
to using every effort to obtain the right systems, supplies and 
services at the right time and at the most cost-effective 
streamlined manner. Our soldiers and the taxpayers deserve no 
less. We look forward to working closely with this committee as 
we continue to implement these sweeping challenges.
    Throughout it all, at its heart, the Army is people. 
Although our soldiers and civilians are better trained, led and 
equipped and more capable than ever before, our forces are 
clearly stretched and our personnel are strained from a decade 
of war. This is evidenced by yet another year of discouraging 
rates of suicide and high-risk behavior, not only among members 
of the regular Army, but the Reserve Components as well.
    In response and in the direct supervision of our Vice Chief 
of Staff, General Pete Chiarelli, the Army completed an 
unprecedented 15-month study to better understand suicide and 
related actions amongst our soldiers. In July, we published the 
first-ever health-promotion, risk-reduction, and suicide-
prevention report. Very, very candid assessment designed to 
assist our leaders in recognizing and reducing high-risk 
behavior as well as the stigma associated with behavioral 
health care.
    The lessons from this holistic review have been infused 
into every level of command and incorporated throughout our 
efforts to strengthen the resiliency of our soldiers' families 
and civilians.
    Moreover, our fiscal year 2012 budget requests $1.7 billion 
to fund vital soldier and family programs to provide the full 
range of essential services to include Army campaigns for 
health promotion, risk reduction and suicide prevention, sexual 
harassment and assault response and prevention, and 
comprehensive soldier fitness.
    In addition, this funding supports family services 
including morale welfare and recreation programs, the youth 
services and childcare. Survivor outreach services and 
education and employment opportunities for family members are 
funded in this manner as well. Caring for our personnel and 
their families goes beyond mental, physical and emotional 
health. We are also committed to protecting their safety both 
at home and abroad from internal and external threats.
    As part of our continuing efforts to learn and adopt and 
adapt from the Fort Hood shooting, the Army has instituted a 
number of key programs to enhance awareness reporting 
prevention and response to such threats. Finally, I would be 
remiss if I didn't mention the devastating impact of the 
continuing resolution on each of the programs that I have 
mentioned as well as dozens of others.
    From modernization to MILCON [Military Construction] to 
family services and base operation support, the lack of a 
fiscal year 2011 budget is adversely affecting critical needs 
and projects that support our soldiers and their families, not 
to mention delaying long-term requirements of the Department 
writ large.
    Let me close by mentioning my deep appreciation and 
admiration for all those who wear the Army uniform as well as 
the great civilians who work day in and day out to support 
them. Daily, I am reminded that these heroes make enormous 
sacrifices in defense of the Nation, sacrifices that simply 
can't be measured accurately. Moreover, I know that each of you 
as members of this great committee play a key role in the 
success of that Army. Your efforts and your support ensure that 
our soldiers, civilians and Army families receive their 
critical resources and authorities they need. We cannot do it 
without you.
    So from the bottom of my heart, thank you. I deeply 
appreciate the opportunity to be with you here today and I look 
forward to the rest of the hearing. With that, Mr. Chairman, I 
yield back.
    [The joint prepared statement of Secretary McHugh and 
General Casey can be found in the Appendix on page 55.]
    The Chairman. Thank you, Mr. Secretary. General.

  STATEMENT OF GEN GEORGE W. CASEY, JR., USA, CHIEF OF STAFF, 
                           U.S. ARMY

    General Casey. Thank you, Chairman, Congressman Smith, 
members of the committee. I am trying to keep a straight face, 
but being here for the last time is not all it is cut out to 
be. I will just tell you that. But it is a great opportunity 
for me to talk to you about the progress that we have made in 
the Army over the last decade.
    I would echo the Secretary's comments on Congresswoman 
Giffords and add my wishes for her speedy recovery and her 
return to this chamber. And if you would indulge me, Mr. 
Chairman, I would like to introduce some guests here today who 
represent the men and women of this great Army. First of all, 
if you just would stand up there, if you would, Ruth. Ruth 
Stoneseifer. Ruth's son, Christopher, was killed in a 
helicopter crash along the Afghan-Pakistan border in 2001 and 
Ruth has committed herself since to helping other surviving 
spouses.
    She has recently completed a tour as the director of the 
Gold Star Mother's Foundation for the last year. So thank you 
very much, Ruth. Sitting next to her is First Sergeant Damien 
Anderson. He is first sergeant from the old guard, but he has 
recently completed a 10-day master resilience trainer course at 
the University of Pennsylvania and master resilience trainers 
are part of our key program to give our soldiers, civilians and 
family members the skills they need to deal with the coming 
challenges of the next decade. So thank you very much, First 
Sergeant.
    And lastly, Sergeant Joe Duasante. In 2007, Sergeant 
Duasante was severely wounded and lost his right leg. He has 
been working actually here in our legislative liaison office 
while he has been completing the 2-year recovery. The good news 
is he has completed that recovery and will leave this summer to 
go to our airborne school as a member of the cadre down at Fort 
Benning, Georgia. So thank you very much.
    Now, if I may, Mr. Chairman, for the past 4 years, you have 
heard me say that the Army was out of balance, that we were so 
weighed down by our current commitments in Iraq and Afghanistan 
that we couldn't do the things that we knew we needed to do to 
sustain this all-volunteer force for the long haul and to 
prepare to do other things. Today, thanks in large measure to 
the sustained support from this committee, I can tell you that 
we have made great progress toward the goals that we set for 
ourselves in 2007 and as an Army, we are starting to breathe 
again.
    We are emerging from a decade of war and transformation 
with a well-equipped, combat-seasoned total force that, while 
still stretched by the demands and lingering effects of a 
decade at war, is able to begin preparing for the challenges of 
the second decade of the 21st Century. And let me just quickly 
update you on some of that progress. First, we have completed 
both the permanent end strength increase that was directed by 
President Bush in 2007 and the temporary end strength increase 
of 22,000 authorized by Secretary Gates in 2009.
    This allowed us to meet the plus-up in Afghanistan before 
we departed Iraq without having to increase deployed time for 
our soldiers. I know there is a concern about the condition-
based reductions planned for our end strengths that were 
announced by Secretary Gates a few weeks ago, but I can tell 
you that I believe that if the drawdowns in Iraq and 
Afghanistan go as planned, that it is prudent to begin planning 
to reduce the size of the Army in 2015 and we need to do that 
to facilitate sustaining a balanced force, one that is both the 
right size to meet our national security strategy at an 
appropriate deployment tempo, but that is also well trained, 
well equipped and well supported.
    In a time of war, we just can't afford anything less. 
Second, our growth plus the drawdown in Iraq enabled us to 
significantly improve dwell, and by dwell I mean the time at 
home between deployments. This is a critical component of 
sustaining an all-volunteer force in a protracted conflict. For 
the better part of 5 years, we were returning soldiers to 
combat after only 1 year at home and we knew that wasn't 
sustainable and had been working to bring dwell to 2 years at 
home as quickly as possible.
    I will tell you that beginning the 1st of October this 
year, given what we know about the projected demands, our 
Active units who deploy after the 1st of October will deploy 
with an expectation of having 2 years at home when they return. 
Our Guard and Reserve units will deploy with an expectation of 
having 4 years at home when they return. We have worked very 
hard to get to this point and it is a significant 
accomplishment because all of our studies tell us that it takes 
24 to 36 months to recover from a 1-year combat deployment. It 
just does. We are human beings.
    And turning faster than that accelerates the cumulative 
effects. I would tell you that we will continue to work toward 
our long-term goal of 3 years at home between combat 
deployments. Third, this year we will also complete the largest 
organizational transformation of the Army since World War II. 
We will finish the modular conversion of all but a handful of 
our 300 brigades and finish rebalancing soldiers out of Cold 
War skills into skills that are more relevant and more 
necessary today. That is to the tune of about 150,000 to 
160,000 soldiers.
    Taken together, it is a fundamentally different Army than 
it was on September 11, 2001, and we had a great Army then, but 
today, we are a much more versatile and experienced force. 
Fourth, to enhance this versatility, we have developed a 
fundamentally different way of building readiness in providing 
trained and ready forces to combatant commanders, and I think 
you have heard about it, but we call it the Army Force 
Generation Model.
    It is an output readiness model that fully integrates the 
Guard and Reserve, that brings the kind of predictability we 
need to sustain our all-volunteer force, and that allows us to 
build the readiness we need to both meet current demands and to 
hedge against unexpected contingencies. ARFORGEN [Army Force 
Generation] is also a more effective and more efficient way of 
building the readiness we need when we need it.
    So if you add all of these things up, accelerated growth, 
increased dwell, transformation and the ARFORGEN readiness 
model, together they begin to allow us to restore some 
strategic flexibility, the capability to provide trained and 
ready forces to all combatant commanders for operations across 
the spectrum of conflict.
    So after a decade of very hard work, we have a force that 
is the right size, that is organized in versatile modular 
formations on a predictable rotational cycle, and that has 
sufficient time at home to begin training for the full range of 
missions and to recover from a decade at war. This would not 
have been possible without your support and the support of the 
American people. So thank you.
    Now, this fiscal year 2012 budget marks a transition point 
in which we can begin shifting our focus from restoring balance 
to sustaining the balance that we together have so 
painstakingly restored to this force. Sustaining that balance 
is critically important because this war is not over by any 
stretch of the imagination. The fiscal year 2012 budget that we 
are presenting today enables us to maintain our combat edge, to 
reset and reconstitute our force, to continue to deal with the 
impacts of a decade at war, and to build the resilience into 
this force for the second decade.
    I would like to say a few words about each of those, but in 
short, this budget enables us to sustain the balance that we 
have restored to this great Army. First, maintaining our combat 
edge. It is important that we maintain the edge that we have 
honed over a decade at war and we will do that through 
continuous adaptation, affordable modernization, tough, 
demanding training for the full range of missions, and by 
sustaining the gains that we have made in our Reserve 
Components.
    Last week, Secretary Gates said that, ``We were an 
institution transformed by war.'' He is absolutely right and I 
talked about that transformation a few minutes ago, but I 
believe that we are in a period of continuous and fundamental 
change driven by rapid technological advances and adaptive 
enemies. Critical to our ability to maintain our edge will be 
an affordable modernization strategy that provides the 
equipment that gives our soldiers a decisive advantage over any 
enemy that they face.
    This budget lays out such a plan and I would like just to 
highlight two key areas and reinforce what the Secretary said. 
No matter where our soldiers are operating, they need to know 
where they are, they need to know where their buddies are, they 
need to know where the enemy is and when they shoot at the 
enemy, they need to strike them with precision. They will also 
need protected mobility.
    This budget contains funding that will begin the fielding 
of some key elements of the network that will enable our 
soldiers in any--enable our soldiers in any environment and 
these include the Joint Tactical Radio System and the 
Warfighter Information Network. It also includes funding for a 
new ground combat vehicle that provides protection against 
IEDs, that has the capacity to carry a nine-man squad and is 
capable of operating across the spectrum of operations, and we 
also hope that it can be developed in 7 years.
    Maintaining our combat edge also requires training for the 
full spectrum of operations. This training is conducted both at 
home stations and at our combat training centers, and it will 
be critical to ensuring that we sustain our combat experience 
and restore the ability to rapidly deploy for the full range of 
missions. It will require moving operations and maintenance 
dollars from OCO [Overseas Contingency Operations] to the base 
over the next several years.
    It will also be important to consolidate the gains that we 
made in our Reserve Components. Think about it. Half of our 
guardsmen and reservists are combat veterans. Half of the 
general officers in the Guard and Reserve are combat veterans. 
I have never seen a relationship between the Active and Reserve 
Component forces better than it is now, and we are working 
together to establish an effective paradigm that allows us to 
leverage our substantial investments and the substantial 
experience of the Reserve Components.
    Second point, reconstituting the force. I see two elements 
to this. One is the continuous reset of forces returning from 
Afghanistan and Iraq. We have got over 110,000 soldiers there 
today and they and their replacements and their equipment will 
need to be reset over time. Reset isn't a one-time shot. It is 
a process that is necessary for every returning unit, and it 
will require sustained funding for 2 to 3 years after we are 
out of Iraq and Afghanistan to ensure that we reconstitute the 
force fully and restore readiness into our next to deploy 
forces. We haven't had that ability in 5 or 6 years, and so it 
is important that we restore that readiness.
    The third critical element for us is building resilience 
into the force for the long haul. We have been at war for 
almost a decade. The cumulative effects are still with us and 
they are going to be with us for a while. Think about it.
    More than 4,000 soldiers killed, leaving more than 20,000 
family members.
    Over 29,000 soldiers wounded, 8,000 of them significantly 
enough to require long-term care.
    Over 100,000 soldiers diagnosed with traumatic brain 
injury. Fortunately, greater than 90 percent are moderate or 
mild.
    Forty thousand soldiers diagnosed with post-traumatic 
stress, and over 30,000 soldiers processed through our warrior 
transition units.
    This budget contains funding for programs like the 
Comprehensive Soldier Fitness, health promotion, risk 
reduction, suicide prevention, the Army Family Covenant, 
survivor outreach services and sexual assault prevention that 
will allow us to continue to build resilience into this force 
for the second decade. We remain, as I know you do, committed 
to the well-being of our soldiers, families and civilians.
    So in conclusion, Mr. Chairman, I would like to leave the 
committee with two thoughts as I complete over 40 years of 
service to this great country. First, we are at a key 
transition point here as we move from a decade of war and 
transformation to a decade of sustaining a force at war in a 
period of declining resources. Together, we have built a great 
Army, but it is an Army still stretched and recovering from the 
last decade of war and it continues to prosecute a war in two 
theaters.
    It took us a decade to get where we are today and we 
recognize that the country is in a difficult fiscal position, 
and we have and will continue to work hard to use the resources 
that you provide us as effectively and as efficiently as 
possible, but we are at war and this war is not over. So we 
need to proceed with caution because the last thing any of us 
want to do is to create a hollow Army while we are fighting a 
war.
    And second, Mr. Chairman, is to thank the members of this 
committee for your enduring support of our Army. You have 
visited our troops and their families at home and at war, you 
have helped us bury our dead and you have seen firsthand 
through all this change, hardship and demands of war. What has 
remained constant is the courage, the selfless service and the 
sacrifice of our soldiers, our families and Army civilians.
    I couldn't be more proud to have worn this uniform for the 
past 40 years and to have served alongside the men and women of 
this great Army. I am humbled and particularly proud to have 
led them in this last decade. It has been the greatest honor of 
my career. So thank you very much and I look forward to taking 
your questions.
    [The joint prepared statement of General Casey and 
Secretary McHugh can be found in the Appendix on page 55.]
    The Chairman. Thank you very much. General Casey, just a 
couple of things about the end strength. I would like to 
understand the relationship between the current requirement for 
BCTs [Brigade Combat Teams] and the cut to the end strength of 
27,000 soldiers. Did the Army propose the cut or was it imposed 
on the Army? If it was the result of an in-depth Army analysis, 
I would like to hear when that analysis took place and what the 
results were. If the analysis has not yet taken place, does the 
Army have assurances that the Department of Defense will 
restore the funding required that the analysis suggests a 
lesser reduction is appropriate?
    General Casey. Thanks, Mr. Chairman. First of all, we did 
not propose the cuts. They were given to us by--from the 
Department of Defense. We were informed of them before they 
were announced, but we did not participate in the development. 
But last July, I went to the Secretary of Defense and I laid 
out for him what I thought the Army needed to do in the next 5 
years and the majority of that was in the next 3 years to get 
this force back and to reset it and reconstitute it.
    And I told them that to do that, I needed to hold the end 
strength of the Army and the access of the Guard and Reserve 
constant through fiscal year 2014. And he basically supported 
me in that with this decision. Now, as I said in my testimony, 
I see this end strength reduction as conditions-based and the 
Secretary established those conditions. If the assumptions 
don't hold, then I am sure the Secretary and my successor will 
feel very comfortable coming back to the Secretary and saying, 
``This won't work.''
    But I think it is important as we look at this to remember 
that we need a balanced Army coming out the other end and if we 
hold the end strength too high, we run the risk of having a big 
hollow force like the Army I came into. So it is going to take 
some good analysis and some good interaction between the 
committee and us as we go forward so that we come out of this 
with the right size Army that can meet demands at an 
appropriate tempo and is also well equipped, well trained and 
well maintained. John, you want----
    Secretary McHugh. If I may, Mr. Chairman, first of all, I 
associate myself with the comments of the chief. While we 
didn't participate, certainly from my perspective, we were 
given ample opportunity to come in and to talk to both the 
programmers and the Secretary as to the way ahead and from my 
perspective, as I look at the direction we are on a path to 
take, both with respect to a total drawdown in Iraq at the end 
of this calendar year and the way forward that the President 
has laid down in his responsibilities as the Commander in 
Chief. Beginning to withdraw out of Afghanistan in numbers yet 
to be determined beginning in 2014, this is a supportable 
position and the budget that underpins it is appropriately 
arrayed, particularly as the chief said with respect to 
ensuring that we have an end strike number that is supported 
robustly by the kinds of training equipment and support 
programs that are necessary to keep it from being hollow, 
something that some of the older amongst us in this room had 
gone through before in our oversight role and something we very 
much want to resist, and both the Secretary of Defense and the 
President are ever mindful of that.
    The old adage, ``Man plans, God laughs'' is always true. I 
remember in my role early on, in listening to four 
administrations come to this committee and lay out their 5-year 
programs, I told them I just pray to God that someday before I 
die I am allowed to live in an out-year. I mean, as the 
President has said and as the Secretary endorsed in his 
comments at West Point just last week, we are perfect in our 
record of prediction. We have always been wrong.
    So the Secretary, the Administration and I assure you, Mr. 
Chairman, I recognize that we have to be ever vigilant as to 
the changing realities and demand on the force, but as we look 
ahead to 2015 and 2016, this is very supportable and I think a 
very justifiable position.
    The Chairman. Thank you very much. I know we are all 
concerned that--and as you both stated, no one can see really 
over the horizon. We have to put our best guesses and as you 
said, unfortunately, many times we are wrong, but the--our job, 
I think, all of us working together is to make sure that we are 
not wrong at the detriment to the Nation.
    And I know I have been around long enough to remember how 
we cut back after World War II and after Korea and after 
Vietnam and I just want to make sure that we don't put 
ourselves in a position that we--as Reagan said, we don't--he 
never saw us get into war that we were--because we were 
overprepared and that is a fine line, I think, between a 
hollowed-out Army and one that is lean and mean and ready to go 
and sufficient in size to handle all of those eventualities 
that may hit us.
    You mentioned, both of you, the CR [Continuing Resolution], 
and I know we all have strong concerns there and I think all of 
the committee here is unanimous in understanding and supporting 
the prospect of getting an appropriation bill finished up. And 
I have talked to the appropriators and they have assured me 
that they are ready to go. They have got the bill done. I don't 
know how much of it has been coordinated yet at this point with 
the Senate. I know they have been working on it.
    I was hopeful that we would be able to tie it in to this CR 
that is being voted on this week, but apparently there wasn't 
time to get it all done, but maybe, hopefully, it could be done 
at the end of this 2-week extension that we are voting on this 
week because everybody--you have all expressed to all the 
services, the Secretary has expressed it, industry, everybody 
understands that if we don't get this done, stupid things are 
going to happen and it is going to end up costing us more 
money.
    So we are unanimous in desire. It is just whether we are 
going to be able to pull it together and make it happen and I 
feel fairly confident that we will. The rest of the spending 
will probably just roll into one big omnibus bill to carry 
through September 30th, but defense will be, hopefully, 
separated out and should be able to move us forward. Ranking 
Member Smith.
    Mr. Smith. Thank you, Mr. Chairman, and I share the 
chairman's concerns about the CR and the hope that we get 
there. I am a little less optimistic about the ultimate outcome 
and I think the members of this committee in particular should 
bear close scrutiny on that process and be as supportive as 
possible of getting us a defense appropriations bill once we 
get through this whole process. There are still a lot of 
differences between the House and the Senate to resolve to get 
there.
    And if we don't get there, one of the consequences is the 
impact that it has on--certainly on the Army, on the entire DOD 
[Department of Defense]. So getting a defense appropriations 
bill, you know, getting a process that gets us to September 
30th is critically important to what everybody on this 
committee does and I hope we all work hard in the next couple 
of weeks to try and make sure that we get that done.
    I thank you gentlemen both for your kind words about 
Congresswoman Giffords. One of the things that her staff has 
been doing, if you are interested to know, she and her staff 
continue to be incredibly strong advocates for Fort Huachuca in 
particular and the military in particular and they work closely 
with my staff to make sure that while she is recovering, her 
questions and concerns about the military and about her 
district in particular get addressed.
    So I have a couple of questions from her staff that have 
been sent to me and then a couple of my own. Fort Huachuca is a 
critical part of the Army. I have been down there to visit 
myself. Going back at the end of this month, as a matter of 
fact. It is where the Intelligence Center of Excellence is 
which provides, you know, great support for all the Intel 
operations and the training for our Intel officers. It is also 
where the Army's Network Enterprise Technology Command, or 
NETCOM is, and that is the focus of my first question.
    How are you and the Army doing a better job of protecting 
our networks? Obviously, in the light of the whole WikiLeaks 
thing, there have been heightened concerns, but even before 
that we were aware of the challenges of protecting the Army's 
network and also protecting the entire DOD network because they 
all come in together. And one of the things I have discovered 
is I visit military bases and there are a lot of Army bases 
that have a piece of that responsibility and it's never been 
clear to me who is ultimately responsible for network security. 
It is a multilayered thing, but having ultimate responsibility 
is a good place to start.
    How are you pulling that together? What is your overall 
plan for the Army's network security?
    Secretary McHugh. I would just start and anything the chief 
wants to add, obviously, you mentioned WikiLeaks, Mr. Smith. 
You are absolutely right. That was a real lesson learned from--
for us and, in fact, for DOD writ large. We have really had a 
parallel effort at OSD [Office of the Secretary of Defense] and 
DOD level. Their intelligence folks have taken a hard look at 
the processes and the procedures as to network protection. They 
have ordered a host of reforms and new measures including the 
tighter restrictions on readable media, et cetera, et cetera, 
that have already been implemented.
    And while I can't put a quantified number to it, I think we 
have already come a long way in ensuring that our network 
security systems particularly for the kinds of things that 
happen with respect to WikiLeaks does not happen again. Beyond 
that, at the Army level, we are coordinating, of course, with 
OSD, but are--we have stood up our cyber which in concert with 
Cyber Command. General Keith Alexander will be the combatant--
is the combatant commander working together to ensure that we 
are installing the kinds of network protections across the 
Army, across the services in general are taken up.
    The Secretary also directed me, asked me to go in and to 
take a hard look at what happened in WikiLeaks, not just what 
happened at that particular SCIF [Sensitive Compartmented 
Information Facility], but the processes by which we train, the 
processes by which we maintain security both at home, but, of 
course, in theater as well.
    Mr. Smith. Just a basic question, if I could on that, Mr. 
Secretary.
    Secretary McHugh. Certainly.
    Mr. Smith. You know, one of the big concerns that was 
raised was the fact that this material was able to be 
downloaded and there were no alarm bells that went off. This 
was clearly protected. Maybe just--could you--why? Why was 
there not a situation where this was downloaded and it didn't, 
you know, raise an alarm?
    Secretary McHugh. Well, the study is still ongoing, but I 
think there were a couple of reasons. One, the controls on the 
SCIF were not up to standards.
    Mr. Smith. So it was the Army's policy that that should 
have happened? It just didn't? It wasn't a----
    Secretary McHugh [continuing]. We don't have room for 
improvement because I----
    Mr. Smith. Okay.
    Secretary McHugh [continuing]. I think it is going to come 
back that we do and, in fact, I am going to meet with General 
Caslan, and he is the officer who is the commander of our 
schoolhouse out at Fort Leavenworth, to pull together a team to 
look at that. I think we probably have a situation where we 
need to tighten up both our training and our standards, but it 
seems likely to me that where procedures did exist, where they 
were perhaps not as sufficient as we would like, they probably 
were not upheld as well as they should have been.
    Mr. Smith. And just one other specific question on that. 
You mentioned the Cyber Command. I think that is a great step. 
I am a big fan of General Alexander's. Could not have a better 
person in that position. So you are confident now that in terms 
of who is ultimately responsible for network security, that 
even in the Army that will filter up directly through the Cyber 
Command, the Army has a representative there and that 
representative is going to be the person who every day wakes up 
going, ``It is my responsibility to make sure the network is 
protected''?
    Secretary McHugh. That is the purpose of those two commands 
and I share your great admiration for General Alexander. His 
experience at NSA [National Security Agency] and now carried 
into Cyber Command, I think, will give us the kind of one-
source authority that is necessary to make sure all the 
Services are pulling the oar in the same direction.
    Mr. Smith. Okay. If I could move on to one other, the other 
areas--as you know, Congresswoman Giffords is very interested 
in energy security alternatives and efficiencies dealing with 
the energy challenges. There is a great quote in your written 
testimony, ``The Army's logistical tail of the operational 
energy pipeline is a handicap that must be overcome through 
technological advances.'' A fancy way of saying getting energy 
to the troops is always a major challenge.
    There have been examples. The Marine Corps has a forward-
operating base that has used solar to dramatically reduce the 
amount of fuel that they have to use, which has dramatically 
reduced the number of convoys that need to run that fuel in and 
out, always at risk when you are running a convoy. So it has 
definitely been saving lives and definitely saving energy.
    Two questions about that. I also know that you have set up 
a sort of a tech center at Bagram--which has a long complicated 
name that I won't get into, but basically it is, you know, the 
problem solver. If you have a technological problem anywhere, 
you know, across the Army, the tech center is the place to go. 
Energy obviously is going to be one of those technological 
challenges.
    How is the Army meeting those operational challenges in 
trying to reduce its dependency on energy and more deal with 
the challenges that were laid out there?
    General Casey. Well, we just call it--I just call it--the 
technology village of Bagram--it is--than the longer term, but 
as you have stated very correctly, Congressman, that is the 
place where we bring in and fuse together the various elements 
of energy efficiency and energy consumption reduction that we 
think is so very important. It is a big cost saver. There is no 
question about it. But frankly, at least from my perspective, 
we look at this as a matter of soldier safety.
    Convoying in fuel supplies is a very dangerous job and we 
would like to see that reduced as greatly as possible. We have 
already deployed some of the lessons learned in places like 
Fort Huachuca and places like Fort Irwin, the national training 
center, with respect to fuel cells, with respect to water 
purification systems. We are putting into the field higher 
efficiency generators. I would add as well that we have put a 
mark on the wall that we expect in the years ahead will reduce 
our energy consumption at FOBs [forward operating bases] 
through high-efficiency batteries, et cetera, et cetera, by 30 
to 60 percent.
    So the Marines and us and the Army are working hard to 
reduce that as a cost saver, but as I said, it is a saver of 
lives and we are very devoted and dedicated to that objective.
    Mr. Smith. Thank you. I won't ask for a comment on this. I 
just want to make a statement for the record. One of the big 
problems we have within the Department of Defense is the 
contractor issue which you remember from when you were here 
the, you know, excessive reliance on the amount of costs. We 
have contractor supervisors and contractors in some instances 
which, you know, drives up costs as well.
    That is something this committee is going to be taking a 
close look at as we try to find efficiencies. I would be 
curious to get, for the record, an answer of sorts if you 
will--both of your take, not right now, but if you could submit 
something on how are we addressing that problem. How can we 
save money in the contractor world because, you know, that is 
something that many members of this committee are interested 
in.
    [The information referred to can be found in the Appendix 
on page 117.]
    Mr. Smith. So you can do that for the record if you had a 
quick comment. I had one other question I wanted to ask you.
    Secretary McHugh. I do. I have a quick comment and----
    Mr. Smith. Right.
    Secretary McHugh [continuing]. And I am glad you brought it 
up because this is, in our opinion, a place where we can save a 
lot of taxpayer dollars through common sense and a tighter 
rein. As I mentioned in my opening comments, we commissioned a 
blue ribbon panel. They have come back with, I think, some very 
exciting recommendations as to how we can tighten that up. I 
have asked both the Deputy Under Secretary of the Army and the 
acquisition executive to look at that, to come back to the 
chief and I with recommendations.
    The other thing, just in closing, one of the bigger 
problems we have had in theater is we didn't have enough CORs, 
contracting officer's representatives. In fact, in 2007, we 
just had 200. Now, I am proud to say we have grown that COR 
body to 3,558 and that gives us an on-the-ground eyeball on the 
kinds of contract situations where we have not been as 
efficient as we should and we would not run as tight of a ship 
as we could and we are getting better, but clearly, we look 
forward to working with you and doing an even better job, sir.
    Mr. Smith. Yes, we will certainly take a closer look at 
that report and I look forward to work with you on that. The 
final question I have builds off of Secretary Gates' speech at 
West Point. He called into question the size of the Army's 
heavy mechanized forces given the threats he foresees in the 
future. It is the most quotable line from the speech being, you 
know, you have to be insane to go into a war like we went into 
Iraq and Afghanistan anytime again in the future.
    Now, some people have misunderstood that as a criticism of 
the existing fights that we are in, but I think it is looking 
forward to say, what are our needs? And I think your initial 
requests in the budget this year, you know, focus on 
helicopters, network communications, lighter, faster dealing 
with the asymmetric threats, but at the same time, you know, 
there is the beginning of the R&D [Research and Development] 
process for a new ground combat vehicle which is ultimately, if 
we are lucky, going to cost $40 billion and that is a very high 
mechanized thing.
    When you look out in the future in terms of how you meet 
the challenges with all the budget constraints that we have and 
how we have to choose between risks, I guess my one difference 
from some on the committee is I don't think it is the job of 
this committee or your job to eliminate all risk. We can't do 
that. We have to sort of manage the threats. We have to do 
triage, try to contain the threats and be most logical about 
what is coming. I think Secretary Gates is spot-on in what he 
said at West Point. So, you know, how does that blend in with 
continuing to build a heavier mechanized force with things like 
the ground combat vehicle, General?
    General Casey. Yes, I am glad you asked that because I 
don't see the ground combat vehicle as a heavy mechanized 
vehicle. It may wind up being heavy because it requires a 
certain weight to protect soldiers from the blast, but we are 
purposely designing it as a full-spectrum vehicle, one that can 
be used in any environment that we go into and it is not 
specifically designed to fight mobile armored warfare which is 
what the tanks and Bradleys are very well designed to do.
    This is the first vehicle that has been designed from the 
ground up to operate in an IED environment and we believe that 
IEDs are going to be part of any future environment that we are 
going to have to operate in. So I don't see it as a heavy 
combat vehicle.
    Mr. Smith. Okay.
    General Casey. I see it as a full-spectrum vehicle that 
will protect our soldiers and connect them to the network.
    Mr. Smith. Thank you, gentlemen, both very much. Thank you, 
Mr. Chairman.
    The Chairman. Thank you. Mr. Bartlett.
    Mr. Bartlett. Thank you very much both of you for your 
service. Secretary McHugh, I continue to be concerned that we 
spend billions of dollars on weapon systems only to change the 
underlying requirement and terminate the program. While 
termination may be appropriate in certain instances, we must 
examine how these requirements get validated in the first 
place.
    The Secretary of Defense coined a new phrase when he 
referred to programs as having exquisite requirements, yet 
these requirements were approved at the individual service 
level and validated by the joint community. I read with 
interest a recent article which stated that you had 
commissioned an acquisition reform study last May. According to 
the article, the study group concluded that cancelled Army 
programs had eaten up between $3 billion and $4 billion a year 
since 2004 and that, ``The Army lacks a credible quantitative 
model and process for determining realistic achievable 
requirements for modernization and recapitalization given 
reduced budgets.''
    I understand that a copy of this study was recently 
delivered to our committee. Can you share any of your 
observations from this study or follow-on actions? Do all of 
the weapons programs that are funded in this budget have valid 
requirements, or in 3 to 4 years will they be labeled 
exquisite?
    Secretary McHugh. Well, I think the Secretary has been very 
clear in his perspective as to what he is looking for out of 
the services and fielding a new platform. And as you mentioned, 
Congressman Bartlett, he feels, and I couldn't agree more, that 
the objective of single service exquisite is 100 percent, 
meaning the requirements can no longer be the standard by which 
we feel platforms and that we have to be more realistic.
    And I would certainly tip my hat to the chief. One of the 
first things he started talking to me about when I walked into 
the Pentagon as the new service secretary was the fact that our 
requirements process simply does not reflect reality, that it 
just ends up being an add-on every little bell and whistle that 
you can think of and the result, as you mentioned was found in 
the acquisition study, has lost billions of dollars and through 
cancelled programs, a vast majority of which since 2004, of 
course, we are through the future combat system cancellation.
    I would like to think we have learned that lesson. I 
wouldn't come here today and tell you we can't do better 
because we can, but to use for an example the ground combat 
vehicle, when that RFP [Request for Proposal] was first put out 
on the street, it had over 900 exquisite requirements embedded 
in it. We had at least the good sense to pull back from that to 
cancel that RFP, to revalidate the requirements and they were 
reduced to less than 200 and the RFP was refielded.
    I think that beyond common sense though, we have to have 
systems changes, and the report by Lou Wagner and Gil Decker 
that you had mentioned is going to be, at least in large 
measure, our blueprint. I don't want to prejudice our 
acquisition executive or our Deputy Under Secretary because I 
just tasked them last week to look at that and to analyze it, 
but I have reviewed this report very carefully.
    I think it lays out in large measure a very common sense 
approach on both requirements and how we can be better 
acquirers of future platforms, and I look forward to working 
with the other executives in the Army to make sure that that 
happens. But I would like to hear the chief's comments if that 
meets with your approval.
    General Casey. Now, Congressman, as I said in my opening 
statement, you know, we are committed to using the resources 
you give us as effectively and as efficiently as possible. And 
as we look at what is happening with the budgets, there is no 
way that we can operate an acquisition system that doesn't very 
efficiently acquire the systems that give us the most value and 
we are absolutely committed to doing that.
    Our track record, as you know better than I, has not been 
good at this. And what the report found--one of the things the 
report found was that our requirements and acquisition core 
competencies have atrophied over the last couple of decades and 
we have got to build those back. And it is going to take us a 
little time, but we are absolutely committed to doing it.
    Mr. Bartlett. Thank you. I think all of us want the very 
best equipment for our people and I think the challenge is to 
be able to develop a more open architecture so that the system 
can continue to be improved as it is in use. To have everything 
on the front end just makes it prohibitively expensive and too 
long of a development time. Thank you very much and I yield 
back.
    The Chairman. Thank you. Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman. Thank you both. Good to 
see you here this morning. And General Casey, I want to 
congratulate you and thank you for your 40 years of service 
including your wonderful wife, Sheila. Thank you both for 
serving our Nation.
    I would like to follow up on the ranking member's question 
regarding Secretary Gates' speech at West Point. In that 
speech, he was questioning the Army's heavy mechanized forces, 
while at the same time saying that he--that the Army should not 
be a constabulary peacekeeping force that can only do 
counterinsurgency, which I found curious because I think 
historically there has never been a closer working relationship 
between our military and our intelligence forces as we have 
taken on the challenge of Iraq and Afghanistan.
    And as we prepare to face the future challenges of not so 
much nations, although they will always be on our radar scope, 
but these groups--these radicalized groups that work everywhere 
from the Middle East to the Horn of Africa and other places, to 
me the Secretary's comments send a very mixed message and I was 
curious to know--what is your view of the Army's role in future 
combats?
    How does the Army strike the right balance between the 
different types of warfare that it may face including in 
partnership with the intelligence community? And as you and I 
have talked about before, you know, the answer isn't that we 
have to be prepared to do everything because that makes it, you 
know--if everything is a priority, then nothing is a priority.
    So do you feel like you have had enough guidance from the 
civilian DOD leaders to make the kinds of choices the Army 
needs to make in the structure of the forces? And if not, your 
successor is going to have to work with this. How do you think 
that will take place? What will that look like and what kind of 
specific guidance will your successor need to be able to carry 
out what I think is a kind of conflicting priority?
    General Casey. Thank you, Congressman. You know, lots of 
different reporting on the Secretary's speech and what I found 
is if you sat down and read the speech, you had a different 
view than you usually got from the press reports of the speech. 
But what I saw the Secretary doing was telling us to start 
thinking about the future beyond Iraq and Afghanistan and I 
think that is the right thing to do and we had been doing that 
already.
    You have heard me talk about we are at war. It is a long-
term ideological struggle and that the trends out there in the 
global environment are more likely to exacerbate that struggle 
than they are to ameliorate it. And when I put all that 
together, I see us as a country in an error of what I call 
persistent conflict, protracted confrontation and not 
necessarily at the level we have been at in Iraq and 
Afghanistan, but at some levels and I would say for a decade or 
so.
    And we don't have a choice. You know, I fought these folks 
in Iraq. They have a 100-year view and they are out to attack 
our way of life and establish their own. So, you know, we have 
to be very careful with that. As we looked at this, the two 
elements of this--the future strategic environment--that are 
most pronounced to us are uncertainty and complexity, and 
Secretary Gates hit it exactly right. Our record is perfect. He 
never accurately predicted the future.
    So it seems to us that we--versatility needs to be the 
primary operating principle for our Army. That is the--we need 
a versatile Army for the future that can do a range of things 
because we just don't know which end of the spectrum we are 
going to be operating at. And as we look at that, we say then, 
okay. Well, we need a versatile mix of forces: Heavy, light, 
special operating, Stryker, aviation brigades and all of the 
supporting--all the supporting forces.
    And we had been working for the last 6 months going back 
and look at--looking at every type of force and the design of 
every unit to take the lessons that we have learned in the last 
decade at war and say have we got this right. And, you know, 
even though since 2003, we have stood down 40 percent of our 
heavy brigade combat teams. We have stood down almost 70 
percent of artillery units and we have stood down about 60 
percent of the heavy sustainment units that supported those 
forces.
    I mean, that is pretty significant, but we are also asking 
ourselves the question, was it enough? And so we are wrapping 
up the study here in the next few weeks and I think my 
successor will be well postured to take a look and figure out 
what this Army needs to look like 2015 and beyond and I think 
that is important. And I think that is where Secretary Gates is 
trying to push us.
    Mr. Reyes. Thank you very much. Mr. Thornberry.
    Mr. Thornberry. Thank you, Chairman. Gentlemen, thanks for 
being here. I want to talk about a different part of the 
Secretary's speech last week. It caught my attention primarily 
because this is something I have been interested in and 
concerned about for some time. He said that the third and 
greatest challenge facing the Army, and frankly, my main worry 
is how can the Army break up the institutional concrete, its 
bureaucratic rigidity in its assignment and promotion process?
    And I am sure you both know that he went on to talk about a 
more merit-based, more individualized approach to officer 
evaluations, citing General Chiarelli's proposal that 
evaluations include input from peers as well as subordinates 
rather than just superiors. He talked about maybe instead of 
moving people around every 2 or 3 years, we ought to have 
people apply for job openings like in the competitive system 
that a number of big organizations use, and essentially quoted 
Nagl and Yingling about how the Army will become more adaptive 
only when being adaptive offers the surest path to promotion.
    And so I think that really gets at the heart of not just 
budgets, but the culture of the Army and my question is, number 
one, do you think he is right? That is the number one concern 
that we ought to have for the Army. And if you do think he is 
right, what are we doing about it?
    Secretary McHugh. Well, I would never say the Secretary of 
Defense is necessarily wrong and I would not hear either of--
not just because he is the Secretary of Defense, but more to 
the point because I think he is right. When you are at war, it 
is tough to say what is the number one challenge, but the 
Secretary's comments were directed, I believe, over time. This 
is a critical aspect of how the Army is structured and how it 
maintains itself that we have to address.
    One of the first things I did when I walked in the building 
was to begin to look at and rewrite the memorandum of 
instructions. These are the qualities that are listed in the 
paper's instructions to the promotion boards what we are 
looking for, the kinds of things that the Secretary mentioned, 
creativity, trying to get our promotion boards not to think 
about lifting up officers simply because they checked the boxes 
that they had checked on their OERs [Officer Evaluation 
Reports] when they were promoted.
    And that is a cultural change that is a challenge, but I 
think we can begin to see it. I would argue that the selection 
of the next chief of staff, Marty Dempsey, should the Senate 
confirm him, is a great example of promoting someone who thinks 
outside the box and it will serve as a great example not just 
because it will help us to create the means by which we can 
achieve those kinds of new paradigms, but also because it sends 
the right message as to what kinds of officers ultimately 
succeed.
    At the end of the day, we have to look at this very 
carefully and I think the Secretary has set the stage in an 
exciting way that will allow us to think in new ways about what 
we value in an officer. I think one of the equally big 
challenges we face, and the Secretary mentioned this in his 
speech, is that as we take today's field grade officers, these 
majors and others who are given so much autonomy, so much 
authority in theater and bring them back into--and put them 
into what often times is a--garrison environment, how do we 
keep them from losing interest?
    And there is a variety of things we have to work very hard 
to ensure that this Army forged through 10 years of war so well 
equipped with creativity and intelligence and flexibility is 
not lost in a garrison environment. And we are looking at that 
everyday in the schoolhouses and I won't tell you we have the 
answers yet, but I think the Secretary has posed a critical 
issue for us to take up and to hopefully deal with effectively 
or we are going to lose the greatest Army, I think, the world 
has ever seen.
    General Casey. If I could just speak back on that, I agree 
that we need to make some significant advances in our personnel 
system. They have been up to their eyeballs just trying to man 
these units and get them into the fight properly manned, but we 
have some significant changes we need to make in our promotion 
and assignments policy. No question.
    I don't think that is a number one concern. It is certainly 
not my number one concern. What the Secretary just mentioned 
about retaining this generation of young combat season leaders 
who understand the environment that we are operating in, that 
is my number one concern and combating this, slipping back into 
a garrison mindset that a lot of the old folks can't wait to 
get back to, you know, the good old days and we have been 
talking about this since last summer when I had all the two- 
and three-star commanders and their sergeants majors in for a 
training and leader development conference.
    And I warned them about this because I saw it myself as a 
division commander in Europe. We brought units back from 
Kosovo. We would have a sergeant that we would let lead a 
patrol into the downtown Gnjilane in the middle of the night 
and we wouldn't let him turn in a deadline report when he got 
back. And that is our bias and that is my number one concern 
and we can't let that happen.
    The Chairman. Thank you. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. Thank you, gentlemen, 
again, for being before us today. There are so many questions 
that I would really like to have with you. I was speaking 
earlier to our former colleague about how we protect the 
industrial base or how we get back to making things in America 
and how we use the military for that transformation, how we 
really get out of Iraq and Afghanistan. So many questions, but 
unfortunately, I really need to come back to an issue that, Mr. 
Secretary, you and I worked on, on this committee because it is 
still bothering me and it is still out there and we just had 
a--last week a lawsuit filed with respect to sexual assault in 
the military.
    And because really nobody else brings it up, I am going to 
do that. You know, one of the things that I remember you said, 
Mr. Secretary, so firmly when we were working on trying to 
change and we did the UCMJ [Uniform Code of Military Justice] 
with respect to sexual assault was a comment you made when you 
were the chairman of the Personnel Subcommittee and you said, 
``It has been 15 years and we have had 18 reports given to 
Congress from the Pentagon about sexual assault.''
    And we are sort of--a lot of things haven't changed. I know 
that they have changed in the way that you are trying to 
implement, but the fact of the matter is I get calls every 
single day about are military women being assaulted by our 
military men. And they get drummed out and the guys get to stay 
in. I mean, this is their main complaint.
    So the task force in the 2009 December report for sexual 
assault in the military recommended that the secretaries of the 
military departments ensure that all commanders and senior 
enlisted leaders be actively involved in sexual assault 
prevention and response training and awareness programs.
    I would like to ask you, Secretary McHugh, what steps have 
you taken to engage General Casey right next to you on the 
subject of sexual assault in the service?
    Secretary McHugh. I want to make sure I understand your 
questions, Ms. Sanchez. What actions have I taken in respect to 
the issue or working with the chief?
    Ms. Sanchez. Working with the chief. What is it from the 
top? How can you help us change this? I mean, I really don't 
want to get another report that says the same thing again. So I 
would like to know how actively--how do you think we can change 
that? Now, you are on the other side, you know, having to deal 
with this.
    Secretary McHugh. Right. Fair point.
    Ms. Sanchez. How do we do this?
    Secretary McHugh. I view this problem very seriously and I 
really view it from two different perspectives. The first is a 
cultural one that I can't imagine anything more contrary to the 
basic core values of being a member of the United States Army 
than sexually assaulting, abusing a fellow soldier be it male 
or female under any circumstances.
    And what we have tried to do through the formation of the 
SHRP, Sexual Harassment Response Program, is to put into place 
the mechanism by which we can begin to change the perspective 
and the understanding particularly of our younger soldiers, but 
all through the cadre as to how volatile this is to Army core 
values. The main component of that SHRP effort is an initiative 
called, ``I am strong; intervene, act and motivate'' where we 
have placed in the schoolhouses at all levels of military 
education, the fact that this is unacceptable, what the 
responsibility of every soldier is and looking out for, 
protecting, reporting and participating and getting this better 
under control.
    Obviously, as we saw last week, we have quite a long way to 
go. I mentioned it to you in our discussions earlier. One of 
the more recent initiatives was to produce two training films 
that I brought here to this House and previewed for a number of 
members who were able to drop by and take a look at it. My 
impression was they felt it was very effective. We give this 
now to--as part of our training aid. So all of our NCOs [Non-
Commissioned Officers], those soldiers that are with our 
troops, our younger troops particularly that learn and look up 
to those soldiers, and we are going to continue that effort.
    The other is to ensure that we have the resources and the 
personnel available to get out there and to make a difference. 
When this program began, it was funded at about $10 million. It 
has been a 500-percent increase and with those monies, we have 
hired 10 experts to go out and to train our trainers. They are 
experts in everything from sexual assaults to investigations to 
counseling to forensics to laboratory work. We have hired 15 
investigators in addition to our base cadre to go out and to 
ensure that when a sexual assault occurs, we have the expertise 
to fully investigate.
    We have hired prosecutors. We have hired 35 additional lab 
technicians. The Army is the central lab for investigating all 
cases of sexual assault and most importantly, we have placed 
into the Judge Advocate General Schools a specialist in sexual 
assault and we have 38 different programs through the JAG 
[Judge Advocate General] schools to ensure that every JAG 
officer coming out and ultimately going to every post, camp and 
station that we have Army forces on understands the nuances of 
investigating and prosecuting sexual assault.
    So we are trying to take a holistic approach. Obviously one 
case is too many. I do think we are making good progress. I 
meet quarterly with the SHRP representatives and the chief and 
we take a full briefing and try to ensure that we understand 
exactly the outcome of those programs, but this is something 
that troubles us very deeply.
    And as I started out, I will close with something that is 
totally contrary to our core values. Thank you.
    Ms. Sanchez. I know my time is up. I will have some 
questions for the record to ask the general on that also. Thank 
you, Mr. Chairman.
    The Chairman. Thank you. Mr. Jones.
    General Casey. If I could just add just briefly to that 
because that, I think, is important, Congresswoman. It is a 
leadership issue. Prevention of sexual assault is a leadership 
issue and it is something that we from the top down have to 
force all the way down through our ranks.
    Secretary Gerin and I started a program in 2008 designed to 
change the culture of the Army because as we assessed the 
programs we put in place in 2004, they were all focused on 
response and not prevention and we recognized that until we 
changed the culture, we weren't going to be successful in the 
program and that is what this program that the Secretary 
mentioned is designed to do.
    At the end of this month, we have our annual conference and 
the Secretary and I are going to put the goal at zero sexual 
assaults.
    The Chairman. Thank you. Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much and Secretary 
McHugh, it is good to see you as always and General Casey. I 
join my colleagues here in thanking you for your years of 
service to our Nation.
    I want to go back. Last week we had Secretary Gates 
testifying and I might have misunderstood, but it seemed that 
he was saying that, you know, before a significant drawdown, 
much must happen in Afghanistan and probably we are looking 
more at 2016 before there is a substantial--excuse me--
drawdown. After I read his comments that he made in West Point, 
General Casey, I have a very dear friend--I gave him my word I 
wouldn't use his name in a hearing on the floor--that you would 
know very well. And I hate playing that game, but you would. 
But I gave him my word.
    I emailed him about Secretary Gates' comments about the 
large number of troops in the Middle East, Africa, wherever it 
might be and this will lead to my question. I am going to read 
you just a sentence that he emailed me back. He said, ``I have 
mixed feelings about the comments made by Secretary Gates. I 
think he is spot-on regarding the commitment of a large number 
of forces to conflicts in either Asia or the Middle East, but 
must qualify this statement with the thought that if the 
conflict is in a vital, national interest, we must never be 
afraid to take action to protect those interests.''
    This general who is retired agrees with me and the American 
people that Afghanistan is really not in our national interest. 
It might have been 10 years ago, but it is 10 years later. My 
comment to you based on what I thought I heard from Secretary 
Gates--can you share with this committee what do you view as a 
realistic timeline for withdrawing the troops from Afghanistan?
    Before I--you answer, would you please--we had been hearing 
for 10 years from different leaders of our military that it is 
going to be critical to be able to train the Afghans to do the 
police work. It is going to be critical to train the 
Afghanistan people to be the soldiers. And, you know, not you, 
sir, not Secretary McHugh, but I have been hearing that for 10 
years and I think 10 years later they ought to be trained. And 
here we go again with the Secretary of Defense indicating that 
the significant drawdown might not happen until 2014 and yet, 
the President of the United States, I know he meant what he 
said at the time, was saying a significant drawdown could 
happen beginning in July of 2011.
    The American people want to know what is the end point of 
this strategy? What can they see that would say to the American 
people we have victory? So if you would share with me, if no 
one else cares, what you see as the timeline that we can 
significantly start bringing down our troops in Afghanistan.
    General Casey. Okay. Congressman, you are asking the wrong 
guy to make comments on policy.
    Mr. Jones. Well, I am just asking your opinion because soon 
you will be a retired hero of this country. So if you can in 
the short period of time----
    General Casey. Then I can make all the--then I can make all 
the comments on policy that I want.
    Mr. Jones [continuing]. Call you back then, I don't know, 
but we don't ever get a straight answer. And I am not talking 
about you here, but we don't ever seem to get the straight 
answer about what we are trying to accomplish in Afghanistan. 
What can we say to the American people that are spending 
billions of dollars breaking our soldiers' backs and legs and 
killing them? What can we say to them that looks like we can 
declare victory?
    General Casey. Okay. If I might just go back to your 
friend's comments there about not putting forces on the ground, 
I mean, one of the things that I have learned in 40 years is 
never say never.
    Mr. Jones. I understand.
    General Casey. And especially in an environment as 
unpredictable as we are operating in. And so I would just take 
you back to the comments I made. We have to have a versatile 
mix of forces that can do a range of things and we ought not 
seal off or put off any options. I can tell you your--now to 
your question about when. I can tell you from my experience in 
Iraq and I was--I am sure I have come to this committee and sat 
before this committee and said we can't credibly hand off 
security in these countries until the local security forces can 
maintain domestic order and keep the terrorists out.
    Otherwise, our long-term mission wouldn't be successful. We 
would just have to do it again. And one of the things I worry 
about as I look at the environment is safe havens. Countries or 
parts of countries where the local government can't or won't 
deny their country to terrorists. And this global extremist 
network has tried to attack us on our soil three times in the 
last year and they are not going to stop and they are not going 
to quit.
    So for us to have the ability to go in and stop that, or 
better yet have the local security forces at a level that can 
prevent that, I think is the only way we are going to protect 
ourselves over the long haul.
    Mr. Jones. Thank you.
    The Chairman. Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman. General, thank you 
and your family for the sacrifices you made for our country and 
the honor for which you serve. And Mr. Secretary, we are so 
proud of you and the dignity and quality of your work at the 
Department of the Army. Thank you for what you are doing as 
well.
    I looked at the budget request for fiscal year 2012 as 
compared to the request for fiscal year 2011. I wish I could 
say it compared to the budget for fiscal year 2011. We are 
trying. And I see that there is about a $29.5 billion reduction 
for fiscal year 2012 compared to the request for fiscal year 
2011. I also see that $23 billion of that $29 billion 
approximately is from the O&M [Operations and Maintenance] and 
procurement account.
    To what extent is that drawdown, that reduction 
attributable to the drawdown in Iraq? Either of you.
    Secretary McHugh. The theater operation differences between 
2011 and 2012 are in large measure the cause of those 
drawdowns. There are a number of subfactors. For example, a 
rather noticeable cut in Warrior Transition Units that comes 
from OPA, Other Procurement Army, where we had a number of 
military construction projects under way to serve in the WTU 
[Warrior Transition Units] inventory. The IT [Information 
Technology] purchases have been made and we no longer need that 
level of expenditure.
    But clearly as we draw out of Iraq, as the expenses 
associated with personnel while deployed, 42 cents of every 
dollar we spend is personnel-related on the infrastructure that 
had been supported. We are down to 73 bases or posts in Iraq, 
more than 400 have been turned back to the Iraqis or just 
closed up, we no longer have to support. So a large measure of 
that is theater-driven.
    Mr. Andrews. Mr. Secretary, could you tell us what the size 
of the force assumptions are for the fiscal year 2012 number? 
Size of the force in Iraq assumptions? In other words, what are 
they based on?
    Secretary McHugh. The assumption is as we are now at 
500,000 and the planning assumption in our operational 
assumption is we will be out of Iraq in entirety by the end of 
this calendar year.
    Mr. Andrews. So am I correct that the present size of the 
force is a little bit in excess of 40,000 Army; is that 
correct?
    Secretary McHugh. Fifty thousand roughly. We have six 
advise----
    Mr. Andrews. Fifty----
    Secretary McHugh [continuing]. And assist brigades and an 
advise and assist task force.
    Mr. Andrews. And the assumption is at the end of fiscal 
year 2012 or the end of calendar 2011?
    Secretary McHugh. Calendar 2011.
    Mr. Andrews. At the end of calendar 2011, it is down to 
zero?
    Secretary McHugh. Yes, sir.
    Mr. Andrews. Okay. I also wanted to ask about the reports 
in today's newspaper about a step-up of fitness standards. What 
was--I applaud that. It sounds like it makes an awful a lot of 
sense. If either of you could tell us, what was the cause of 
that decision?
    General Casey. It is just--it is something that we have 
been working for a long time and the last test was 30 years old 
and we have been working at this for a while.
    Mr. Andrews. Right.
    General Casey. And it--finally, we got to the point where 
we had some concrete ideas and put it in their package and now, 
we are going to pilot it at several installations. But it is 
designed to test this--the things that we see ourselves using.
    Mr. Andrews. I don't expect you to have a specific number, 
but do you know an intelligent estimate of what percentage of 
those who attempt to enlist are obese or significantly 
overweight?
    Secretary McHugh. Seventy-five percent of the age 
knowledgeable population of this country are either--through 
weight, social background, criminal background or intelligence 
levels--unavailable for being accessed in the United States 
Army. And of that 75 percent, a very substantial number is 
because of obesity problems.
    Mr. Andrews. So I assume if we could do a better job in the 
civilian world with diet, nutrition and exercise that the 
number of men and women eligible to serve would expand pretty 
significantly?
    Secretary McHugh. I think that is a fair assumption, sir.
    Mr. Andrews. And I see that you did a great job at 100 
percent of your recruiting goals for this year which is 
extraordinary given the circumstances. How much easier would it 
be to hit those recruiting goals if we had more people who were 
physically eligible to serve?
    Secretary McHugh. I think our recruiting command and its 
cadre would be delighted, but they, do a great job and it is 
not just numbers. The quality of our recruits is outstanding. 
Over 98 percent are high school grads that----
    Mr. Andrews. Sure is.
    Secretary McHugh [continuing]. Far in excess of the 
population averages in this country and their intelligence 
levels are really unequaled in our Army's history----
    Mr. Andrews. We agree and please thank them all and we 
thank you. I yield back. Thank you very much.
    The Chairman. Thank you. Next will be Mr. Forbes and at the 
conclusion of his questions, we will take a 5-minute break for 
the committee. Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. And Mr. Secretary and 
General, you know the enormous respect you have at this 
committee. Mr. Secretary, you have sat on this side. So you 
know our needs. And General, I don't know of any individual in 
the military who spends more time to talk with members and find 
out their concerns than you do.
    So I have two questions for you. One is that it seems like 
over and over when we have people coming in to testify to us 
today we are hearing them say we are trying to give you a 
defense strategy that is driven by physical realities. When we 
hear that, it seems like we are saying there is this tension 
between what our defense needs are and what our budgetary wants 
are.
    The first question I would have is do you have any 
recommendations for us as members of this committee about how 
we can be assured that we are getting the true defensive needs 
of the country that are not distorted by budgetary wants? That 
is one. And the second one, it seems like we are needing to use 
modeling and simulation a lot today for training, also for our 
testing and for jointness.
    How important do you see modeling and simulation in the 
Army and what kind of future do you see for modeling and 
simulation?
    Secretary McHugh. I think many of us have been through the 
times, as I mentioned earlier, where we had a very significant 
mismatch between what the National Defense Policy was and what 
the services were fielding.
    And from my experience, I think we all intuitively knew it, 
but didn't press it. I sat through my first drawing up from the 
DOD side of the Quadrennial Defense Review and as I understand 
it, this was a landmark QDR [Quadrennial Defense Review] and 
that it really did for the first time make an effort to 
purposely match available resources against the formulation of 
that defense policy.
    And I wish I were a better attuned to the QDR both as a 
process and a document when I was a member of this committee 
and I think every member would find that helpful because it 
exposes the validity of what the National Defense Policy is and 
ultimately the resourcing of the individual services or the 
gaps that exist that you can discern from those.
    So my humble suggestion was, you know, read the QDR, be 
familiar with the process and you can learn from it. I would 
say with respect to the 2012 budget, because I am mindful of 
the very circumstances that you spoke about, Congressman 
Forbes, that I look at this budget as really driven by policy, 
driven by what we expect the threat to be particularly in the 
out years.
    I mentioned we can never get it right, but as we look at 
the drawdown in Iraq that we have already drawn down to just 
under 50,000 troops, as we look at what the President has said 
with respect to the drawdown as anticipated in Afghanistan, 
particularly beginning in 2015 and as the Secretary of Defense 
and the chief worked out in their conversations, this budget 
fields an Army.
    Again, critically important that it isn't just sufficient 
numbers, but it is robust in the equipment that is available to 
the training and program support initiatives for their families 
that we all know is so important in this volunteer force, but 
at all times, this committee plays a critical role to make sure 
that the services are getting it right and we don't just look 
to you, we need you to keep a close watch and vigilance and 
that is why, in my opinion, this is such a great committee. 
Simulation is absolutely essential.
    We do a great job in trying to give soldiers real role 
experiences. If you go out to the chairman's district of the 
National Training Center, a little place called Medina Wasl, 
the replication of IEDs in a firefight in a simulated village 
either Iraq or Afghanistan is chilling, but clearly simulations 
are computer driven and are some of the best ways we can ensure 
that our soldiers are acclimated to what they are going to see 
and what they are going to experience once they get into 
theater.
    And I see it, as robotics and such get better and better, I 
see it as an increasingly important part of our training lay-
down.
    General Casey. Congressman, I would just say that we are at 
war and I can't imagine that you would ever have anyone wearing 
this uniform sitting in this position not coming to you and 
telling you what the men and women of the United States Army 
needed to successfully prosecute that war and recover from it. 
And that really was the theme of my opening testimony that we 
have to be very, very careful here as fiscal pressures cause us 
to make decisions about the size, the structure, the equipment, 
the training for your future Army.
    We have been at war for a decade. It took us a decade to 
get where we are today and we can unhinge that in a couple of 
years.
    The Chairman. The committee will now stand in recess for 5 
minutes and reconvene at 10 minutes to 12:00. Thank you.
    [Recess.]
    The Chairman. The committee will be in order. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. And to General Casey, 
I think that we are all grateful for your service to the 
country as our troops are and their families and I want to 
thank you very much for always being available as well. And, 
Mr. Secretary, good to see you as well. I wanted to follow up 
just very briefly on the issue that my colleague, Congresswoman 
Sanchez, raised because we do meet with victims quite 
frequently actually and I think the one message that I would 
relay from them is that until the perpetrators are held 
accountable and not promoted, nothing is going to change.
    All the education in the world is not going to make a 
difference. So it is the law enforcement piece that is really 
critical here and I think we need to continue to work on that. 
And I know you have been working on it. Thank you.
    The other issue that I wanted to raise that a number of 
colleagues have mentioned is really the contracting issue and I 
don't know whether you happened to see the C.Q. [Congressional 
Quarterly] article in the middle of this month and we are very 
aware of these issues ongoing, but it feels as if, in addition 
to the Army Acquisition Review that is going on, the fact that 
we have hired a number more corps men to deal with the 
procurement that there is also a real cultural issue there in 
the way that contracts are led.
    And I wanted to ask you, General, because the Secretary 
spoke to this. I mean, you see a lot of this. I can't imagine 
that this is not so frustrating from time to time because this 
is all about the troops. It is about their equipment. It is 
about the way that we train and a lot of the contracts that we 
know go on forever and don't have the kind of oversight that 
they should. How is this going to be different? How do we 
change business as usual?
    General Casey. Congresswoman, I come at this from two 
perspectives. One is the actual skills required to develop and 
monitor contracting, and you may recall back in 2007 the Army 
chartered what we called the Gansler Commission. Jack Gansler 
went out and we told him the same thing that we basically told 
Lou Wagner and Gil Decker about the acquisition, go out and 
give us a soup-to-nuts look at how we are doing contracting and 
tell us what we need to do to fix it.
    He came back and gave us a blueprint and when we looked at 
it, it is getting the right leadership, you know? We have 
promoted 15 acquisition and contracting colonels to generals in 
the time that I have been here and that is putting people in 
the right rank in leadership positions that have the knowledge 
to deal with these things.
    We also have set up a contracting command and seven 
expeditionary contacting brigades to provide the oversight. You 
might remember the charts where we started off with a couple of 
hundred million dollars worth of contracts in Kuwait and it 
went to $5 billion and didn't increase the people monitoring 
the contract.
    Mrs. Davis. I think partly what I am asking though are 
sole-source contracts. Now, maybe it is hard to generalize 
that. Is that a good idea? Is it a bad idea of data rights? Do 
you think those issues are going to be changed and what would 
you change?
    General Casey. Some of those--yes. Well, some of those 
issues are really a case-by-case basis and there is not a 
cookie cutter way to say yes or no on any one of those. The 
other thing on contracting is how we actually develop the 
requirements--to go out and buy something for the troops and 
that is what the second study looked at.
    And it comes down to you have got to have the right people 
with the right skills and that takes time to build them. And so 
I think we are going in the right direction. I think it is 
going to take us some time to get where we want to be.
    Secretary McHugh. May I say just a couple of things about 
sole source? As the chief said, there are circumstances where 
you have no choice and in those circumstances are obviously an 
operational necessity, but they are few and far between or they 
should be. And I think your point is well taken that you don't 
have to look in the far past--the too distant past to see where 
sole-source contracts may have been let as a matter of 
convenience, not as a matter of responsibility.
    Probably the most prevalent example of areas where the Army 
and others have been criticized is--are in the LOGCAP'd 
[Logistics Civil Augmentation Program] contracts, those service 
support contracts and principally in Iraq that over time in the 
past were sole-sourced. We have changed that. They are now--
let. We have three, in fact, LOGCAP at the operators in LOGCAP 
IV. We had the issue recently of so-called ANC, Alaska Native 
Corporation, contracts where under the federal guidelines an 
Alaska Native Corporation duly constituted is eligible for a 
sole-source contract. That was the topic of some discussion in 
recent newspaper articles.
    We have put out directives that if we indeed use those 
kinds of contracts, they have to be absolutely justifiable. We 
don't want to diminish our support of the small business and 
minority objectives----
    Mrs. Davis. Exactly.
    Secretary McHugh [continuing]. And this Administration is 
very supportive of those, but I think we have got to be wise 
taxpayer stewards, and sole-sourcing is something that we can 
do a better job of.
    Mrs. Davis. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mrs. Davis. I will submit questions for the record. Thank 
you.
    The Chairman. Thank you. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And General Casey, 
Secretary McHugh, thank you very much for your visits to Fort 
Jackson which I am very grateful to represent in South 
Carolina. To me, it is a classic case of where new recruits are 
trained, military opportunity is provided and our military 
service where young people can achieve to their highest 
potential. And so I appreciate your service.
    In my perspective, my dad served in the 14th Army Air 
Corps, Fighting Tigers, World War II. I was grateful, General, 
to serve actually beginning with you at Indiantown Gap Military 
Reservation, Pennsylvania, several years ago. Like, 1943. And 
so I served 31 years in Guard and Reserve, but most grateful I 
have got three sons currently in your command serving with the 
Army National Guard, one son served for you in Iraq, another 
has served in Egypt and the third guy will be commissioned May 
12th.
    With that background, I want to thank you. This committee 
has been bipartisan and I sent a letter with Congresswoman 
Davis and, General, you responded and I appreciate this. Our 
concern was dwell time, one that the goal is still one to three 
and I am still hopeful too that boots on the ground that we can 
work for 1 year to 9 months.
    But my concern is about the drawdown and the impact of a 
27,000 drawdown. I am concerned obviously for the morale of the 
troops, for the families, their concerns and expectations of a 
career that could be in jeopardy. I am also concerned that we 
may have an unintended message to our enemy that we are not 
understanding the threat to our country.
    And so as to the impact, General, what do you see as to 
what study and what will be considered for a drawdown?
    General Casey. Thank you, Congressman. As I have--we have 
worked our way through this. I mean, there was a reason I 
picked the end of 2014 to hold our end strength in excess to 
the Guard and Reserve and that the reason was that got us 
through one full cycle at 1 year out, 2 years back and I felt 
that that was important to get that for the troops.
    As we talked about earlier, you know, we have not yet begun 
to figure out how this drawdown will occur. I mentioned that we 
have had some ongoing work for about 6 months here looking at 
our force structure, figuring out what we need more of, what we 
need less of, those kinds of things and that work will come 
together, I would think, over the next 90 days to 180 days.
    And so I think we are in a much better position to talk 
about that a little bit later. But I would assure you and the 
committee that we will work very closely with the committee and 
we want to make sure because we are at war. We have an 
appropriate end strength that both meets the demand and does it 
at a sustainable tempo. I can't imagine knowingly bringing to 
this committee an end strength that wouldn't give us at least 
one-to-two and we want to get to one-to-three and be able to 
surge to one-to-two. That has got to be the new benchmark. We 
can't go back to one-to-one after a decade at war.
    Mr. Wilson. And that would just be what we would--I know I 
would support. So I thank you for your commitment. 
Additionally, General, all the joint chiefs signed a letter 
supporting changes in the military health care plan and these 
changes affect the military, but they also go beyond that and 
affect our local hospitals such as Fort Drum, New York; Fort 
Huachuca in Arizona.
    How will these hospitals be affected? I am going to ask the 
Secretary that.
    Secretary McHugh. If I may, in my old district, you 
mentioned one of the hospitals. When that special program was 
set up, the original intention, as I recall, was to ensure that 
these hospitals had the opportunity to adapt to the needs of 
the military community and the assistance dollars were intended 
to provide that bridging opportunity.
    If I could use the hospital outside of Fort Drum, New York 
and Carthage, New York, as an example, at the time their OB/GYN 
operations were probably not at a level that would allow them 
to take advantage and participate particularly in live birth 
deliveries for the--population and we would hope the monies 
provided gave them that chance to upgrade their infrastructure.
    From my perspective, it was never intended to be an 
unending program and, in fact, it has been maintained now for a 
sufficient amount of time that the Department of Defense made 
the judgment that indeed we could withdraw that support and 
that the bridging should have been completed by now. I can't 
speak to the condition of each and every hospital, but I think 
from a programmatic level, it was a reasonable planning and 
budgetary assumption.
    I just want to point out when we are talking about the very 
modest increases to the TRICARE payments, they do not affect 
Active military. No Active military member nor their families 
would be affected by the very modest increases in the TRICARE 
enrollment increases which are $2.50 a month for an individual 
and $5 for a family.
    Mr. Wilson. Thank you very much. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman. Mr. Secretary, thank 
you for being here. Good to see you again. And General Casey, 
we also wish you the best and if you could, pass on to your 
wife also our thanks for her service. I know you and I were at 
a meeting last spring. We were both there in service of our 
spouses who were in service of our military families and 
especially our military children in the light of education.
    Our concern here, my concern is for the whole of the 
military, the whole of the Army and the Reserve Component. I am 
going to zero in a little bit towards Fort Bragg, the center of 
the universe, and General Mulholland and Special Forces. I am 
sure there is one or two people here that might be familiar 
with Robin Sage and the exercise that our special forces go 
through and they have trained to go into the field and they 
tell us it is the best training they get to actually be working 
and encounter insurgency and I have had the privilege because 
Robin Sage is mostly my district.
    I have had the privilege of being a character actor there 
three times. I have met the Pine Lynn government official who 
will work with the insurgency and has been a great opportunity. 
But if you could, tell us a little bit about the Special 
Forces. I know Admiral Olson was talking about the special ops, 
they are starting to feel a little bit of the strain. What are 
our Special Forces doing, where are we heading, and what are 
our plans for Special Forces?
    General Casey. We have been adding a Special Forces 
battalion a year here for the last several years and I think we 
finish up next year and it will be a total of five more Special 
Forces battalions that we have added to the force.
    And I talked to General Mulholland frequently and he has 
done a wonderful job of putting us in a position to better 
support them. I know you have heard a lot about--talk about 
enablers for Special Forces. We have worked out a system where 
they can request enablers from us through the normal force 
generation process that I described earlier and that is helping 
them out quite a bit.
    I think one of the other things that we are looking at 
here, and I have discussed this with both General Mulholland 
and Admiral Olson is that--we are looking because of our 
experience of--with conventional forces working with other 
militaries that we have gained in the last 5 or 6 years. We are 
actually going to be in a position here next year to start 
taking some of the training requirements to ease the burden on 
the Special Forces.
    And so that active conventional mix can go--active special 
mix can go the other way and actually we can wind up supporting 
them. And I am--the other thing that we are doing is for 
Special Forces aviation, building them some additional CH-47 
[Boeing Chinook helicopter] battalions so that they increase 
their aviation capabilities.
    Mr. Kissell. Thank you, sir. And I would just like to 
quickly reiterate what my colleague, Mrs. Davis, said about the 
concerns about some of the--and that you all have talked about 
and working on that some of the procurement--down to some of 
the smaller levels of contracts. I am not talking about the big 
systems and the big monies, but just some of the things that 
people have that are better ideas, better cost. It just seems 
like the bureaucracy that there is such a comfort level of the 
people within the programs that they don't want to be bothered 
with having to consider something else.
    And we get a lot of folks that we feel that have good ideas 
that just get frustrated with the process. We appreciate you 
all working on this and I will actually be sending a couple of 
questions in for the record. And thank you for your service and 
thank you for your time and I yield back, Mr. Chairman.
    The Chairman. Thank you very much. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. General, thank you for 
being here. Mr. Secretary, good to see you again. I appreciate 
you being here and I for one do miss you on the committee. So 
for all those who are happy that you are in that position, we 
certainly appreciate all the accomplishments that you had while 
you served on this committee.
    General, you had made the point, you know, that we are a 
country at war and this is a Congress that is burdened by the 
issues of how we address this mounting debt and the deficits 
that our country is facing, but I think, you know, we know 
being a country at war that our greatest concern is, how do we 
ensure that the Department of Defense receives what it needs at 
the same time that we look for efficiencies?
    And one of the concerns that I have as we look to this 
year's of reductions or cost-cutting in the Department of 
Defense is the issue of end strength reductions, both those 
that I looked at, at the Marine Corps and the Army. And in your 
opening statement, you made reference to the issues of dwell 
time ratios. We know that the Marine Corps and the Army neither 
have met the goal of one-to-three dwell time ratios.
    According to the Chairman of the Joint Chiefs' testimony to 
the committee on February 16th, the Army will not even achieve 
a one-to-two dwell ratio until sometime in 2012. You made 
similar statements of the goals of achieving it, but they are 
still just goals and we have grave concerns as we look to what 
reductions and resources you might have as to whether or not 
that is accomplishable.
    And then so if you would comment on that, I would greatly 
appreciate it. And then, Mr. Secretary and General Casey, I am 
also interested in your thoughts on the issues of the HMMWV 
[High-Mobility Multipurpose Wheeled Vehicle] reprogramming. I 
think people are really concerned as to what extent there has 
been true and accurate analysis of both the ability to field 
the type of vehicles that are needed and to look at what the 
effects are going to be of the account reprogramming and we 
would appreciate it if you would comment on that, and I 
probably have a follow-up question to the HMMWV comments.
    Secretary McHugh. If I may, I will start with HMMWVs and 
then if the chief would take over on end strength. The issue of 
how carefully did considered this is a well studied one, and I 
can assure you this is based on sound analysis. I directed 
early on in my tenure as the Secretary that the Vice Chief of 
Staff of the Army, General Pete Chiarelli, and the Under 
Secretary of the Army, Joe Westphal, began what we are calling 
capability portfolio reviews. Everything the Army does is 
compressed into a portfolio whether it be our wheeled vehicles, 
our combat fighting fleet, et cetera, et cetera.
    And when that panel took a look at HMMWVs, they discovered 
something very, very interesting. Not only have we met our 
requirement, we in fact had exceeded it and we had come to the 
point where we always knew someday it would be that our 
acquisition objective had been achieved.
    There are a couple of reasons that snuck up on us, I think, 
in large measure because the HMMWVs were not being used to the 
extent we thought they would be in theater. They were lasting 
longer and we weren't having to transition out through wear as 
many as, I think, in the first instance were programmed. The 
other thing is the commanders were concerned about their 
survivability in an IED environment. So that too added to the 
fact that we had more on-hand much, much sooner than we had 
originally planned.
    So that analysis led us to the conclusion that the monies 
that were scheduled in 2010 to procure more HMMWVs could be 
better spent in other ways. And we worked with the Secretary of 
Defense and Comptroller Hale to ensure that the proposed 
reprogramming we put forward would utilize the monies should 
Congress approve that reprogramming to meet the immediate 
threat that our soldiers are facing in theater, counter IEDs, 
ISR [Intelligence, Surveillance, and Reconnaissance], things 
that are necessary to save lives.
    So it is a very careful calculation. We feel it is well 
founded in the data and obviously a change of this nature 
causes concern amongst some quarters. We understand that and we 
are willing to do whatever we can----
    Mr. Turner. Before, if I could----
    General Casey. Sure.
    Mr. Turner [continuing]. Before my time completely runs 
out, but I appreciate your answer, and your explanation, you 
know, the two concerns obviously in that switch you are taking 
a capital expenditure and shifting it to what is an operational 
expense. The other issue is the concern that the JLTV [Joint 
Light Tactical Vehicle] program may be delayed and what--a 
result if that program is delayed? Will you be able to meet all 
of your requirements?
    Secretary McHugh. The question--your second question is we 
will. We have a recap program for the existing HMMWV that is 
being damaged right now frankly by the continuing C.R. We have 
had to lay off 200--on that recap program, but we feel we can 
buy a zero-miles-based, zero-hour-based recapped HMMWV for 
$100,000 versus $165,000 for an equal new. So we feel confident 
and we are going to require platforms with our reprogramming, 
as I said, counter IED and such, in the same fashion we are 
going to require HMMWV platforms.
    The Chairman. Thank you. Ms. Hanabusa.
    Ms. Hanabusa. Thank you. Thank you, Mr. Chairman--my 
colleagues who liked you, thanks, General Casey, for his 40-
plus years of service and to say that I have read a lot about 
you and I think we are losing someone with amazing foresight as 
to what we need to do.
    Having said that, my questions are for the Secretary. Mr. 
Secretary, in looking at the budget, it is very evident that 
the base budget for the 2012 request is about $144 plus, almost 
$145 billion, and there is this interesting category--of 
course, the overseas contingency operations, the OCO, which 
then amounts to almost 50 percent of the $144 billion. For your 
total addition together, you would have about $216 billion.
    I was really interested in the OCO category because my 
understanding from the power briefings is that that category is 
really one that is sort of tied to Iraq and Afghanistan and as 
we begin to draw down, I assume that that budget was also being 
looked upon as being drawn down. Now, how would that then 
impact what you need to do with your sustainability efforts for 
the Army in the future?
    Secretary McHugh. Well, indeed the OCO budgets that used to 
be called supplemental budgets are designed to support theater 
operations. That is how historically Congress has funded wars, 
and it provides us an opportunity to fund, as you noted, a base 
budget this year just over $140 billion to sustain those things 
that we would buy whether we were at war or not, and at the 
same time to ensure we are doing the right things by the 
warfighters.
    Indeed, as you noted, Congresswoman, OCO budgets do come 
down when theater operations and demands decrease. The $71 
billion in this year's Army OCO request is down from about $120 
billion in years past and we expect that that will continue as 
operations diminish.
    We will need in terms of our long-term sustainment, as the 
chief had mentioned earlier, 2 to 3 years of reset monies, 
those dollars that in large measure, in fact, totally contained 
in OCO right now to bring back the major pieces of equipment to 
put them through the recap program to bring them back to 
standards for 2 to 3 years after we are no longer engaged in a 
name contingency.
    So we need those reset monies as they are contained in OCO 
right now to transition with Congress' support into the base so 
we can do over the next 2 or 3 years after cessation of 
hostilities the reset program that we need.
    Ms. Hanabusa. I noticed that also part of the OCO budget is 
an increase of $9 billion for research and development and 
about $2.1 billion for procurement. I happen to be a great 
advocate of research and development and I was wondering, why 
is it in the OCO budget? Was there something unique about this 
research and development and the procurement that puts it in 
the OCO budget versus something that can be facilitated in the 
base budget?
    Secretary McHugh. I don't recall that exact line, but 
clearly if you look for example historically at joint IED 
defeat programs, the RTD&E [Research, Development, Test & 
Evaluation] had been in the OCO. I would note that we are 
purposely--and I think at the behest in urging of the Congress 
and this committee--moving those funds for IED defeat and 
providing a line in the base budget for that, but a generic 
response to your question be any time we are developing 
something such as an MRAP [Mine Resistant Ambush Protected 
vehicle] or something that is field-unique, it would not be 
unusual to have at least a portion of the research development 
monies in the OCO itself because that is a primarily war-driven 
process and cost.
    Ms. Hanabusa. Let me ask you about one of the--probably the 
most disturbing parts of the testimony regarding General 
Chiarelli's report on the suicide. Now, how much of the reset 
or how much of this dwell time should--is going to cost--it is 
going to have a cost--and how much of that should we really 
have in the base budget if it isn't already in the base budget? 
It seems to be something that is so result of the OCO 
operations.
    So what do we want to ensure into the future that we have 
those kinds of costs written into your base?
    Secretary McHugh. Well, we pay a soldier whether that 
soldier is back and reset and going through--in his or her home 
base or if they are forward-deployed. When they are forward-
deployed, there are certain wartime pays and bonuses that are 
available, but the cost when you are in CONUS [the continental 
United States] and garrison are calculated as part of our 
personnel expenses, as I mentioned earlier, about 42 cents of 
every dollar we spend are personnel-driven and it is something 
that we will have to build into our budget development process 
and we do that routinely.
    Ms. Hanabusa. Thank you.
    General Casey. If I could, we are already putting some of 
those costs in the base. I mean, we have about $280 million in 
the base for psychiatric care and services and another $85 
million for research in post-traumatic stress and mild 
traumatic brain injury. That is already in the base.
    Ms. Hanabusa. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman. And General 
Casey, may I just add my name to the list of all those who have 
lauded your noble service to humanity and just to the cause of 
human freedom. I know that there is no way to express the kind 
of service that you have done. I mean, a lot of us talk about 
freedom up here and people like yourselves carry it on your 
back everywhere you go and I appreciate it so much.
    And Mr. Secretary, obviously it is wonderful to see you 
back again. You know, I don't know if it is harder on that side 
of the lectern or not. It sounds like it might be. So my 
question is to both of you. DOD has recently decided to stop 
funding for the Medium Extended Air Defense System, or the 
MEADS system, and yet they have decided to complete the design 
and development phase of the program which requires an 
additional $804 million across fiscal 2012 and 2013.
    And as you know, the MEADS program is intended to replace 
the aging Patriot and Hawk missile system that has been 
developed in cooporation with, of course, Italy and Germany. 
Admiral Mullen testified in a hearing before the Senate in 2007 
that, ``In view of the threats we face today and will face in 
the future, I believe the United States should deploy 
components of the ballistic missile defense system as soon as 
they become available, even as we improve their operational 
effectiveness.''
    Now, significant amounts of time and research and 
development and testing have already gone into the MEADS system 
and at a time when the need for layered ballistic defense 
system is drastically increasing, I guess my question is kind 
of three-fold. First, does it make sense to end the program 
that will meet this need so near to its completion? And, 
secondly, if the program is terminated what course of action is 
the Army taking to replace the intended mission of the MEAD 
system and what kind of timeframe are we working on?
    And finally, do we have a cost comparison between seeing 
the MEAD system go through the--to production and 
implementation and the alternative to replacing the Patriot and 
Hawk missile systems? That is a long set of questions, but it 
is----
    Secretary McHugh. I will do my best to try to get through 
at least most of those. This was not an easy decision and it 
wasn't a hasty decision. As I am sure you are aware, 
Congressman, the MEADS program has been under way for a decade. 
The Army has invested over $2 billion and that is only the 
partial cost of the program. Frankly, it was underperforming. 
You mentioned it was close to completion. We are not so sure 
that is true.
    The decision to stick with the D&D [Design and Development] 
through the end of, I believe, 2014--the technology was one to 
provide our German and Italian partners an equal opportunity to 
harvest technology out of that. If there is any available 
information and gain out of this program, it is the technology 
package. We intend to put that on the shelf and to utilize it 
in trying to develop a program that can deliver the capability 
the MEADS was designed to deliver and do it in a more timely 
and affordable way.
    In the interim, it is our intent to do upgrades to the pack 
three that you mentioned to--and other layered defenses that 
OSD has validated to us are available to meet the near-term 
needs. We just felt it was more good money after bad, but we 
remain committed to a system that is--that provides that kind 
of protection against the threat that is just not going to go 
away.
    Mr. Franks. General, I might ask you to elaborate, too. I 
mean, as far as the cost comparison to any replacement that may 
occur, you are saying to me, it sounds like, that you think 
that the PAC-3 [Patriot Advanced Capability-3] and some of the 
other systems can be upgraded to be able to meet that need; is 
that--was that what I was hearing?
    Secretary McHugh. I said there is a bridge.
    Mr. Franks. Okay. Where would the bridge go?
    Secretary McHugh. Well, the bridge goes to the next system. 
We are not abandoning the project that--and one of the reasons 
for harvesting the technology is as the threat becomes more 
prevalent, we can take the technology off the shelf and develop 
a system that meets the threat when it appears. Right now, it 
is prospective.
    Mr. Franks. Well, I guess I am--you know, I am hearing a 
little conflict here that the threat or the need is increasing, 
but you are--if I heard you right, Mr. Secretary, you are 
saying that the need right now is more prospective? Now, maybe 
I misunderstood.
    Secretary McHugh. Well, what I am suggesting--and I defer 
to your expertise on missile defense, Mr. Franks. I have 
followed your lead on voting many times and I appreciate the 
insight and the understanding you bring to that.
    Mr. Franks. You should keep that a secret, if you can.
    Secretary McHugh. No, there are not many of us here. 
Perhaps they will hold it----
    Mr. Franks. Nobody will know. You are safe.
    Secretary McHugh. Yes. Yes.
    But we felt there was a--use of money particularly with 
this program that was non-performing and we really did not see 
light at the end of the tunnel to invest the funds more wisely 
in an immediate threat that we know is out there that we feel 
and has as, again, I mentioned, validated by OSD and DOD that 
can be met by our PAC-3 upgrade programs, Aegis System and 
other available technologies.
    Clearly, we need to ensure in the future as this threat 
that MEADS was intended to confront matures to have a response 
to it and that is why we are harvesting the technology to begin 
to develop a new program that will meet what we feel is a 
maturing threat somewhere down the road, it is not a threat 
right now that we believe we are indefensible against.
    Mr. Franks. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman. Mr. Secretary and 
General, thank you. Let me beat this horse from a different 
side. It is going to cost about $800 million to finish MEADS to 
proof of concept. That is 800-and-something-million dollars. 
The request to bring it this next fiscal year 2012 is around 
$400 million, roughly half.
    If you are not doing it for any particular purpose that 
meets a standing threat, then why put the money there at all? 
My question is actually for General Casey. Do you have any 
other thing you would like to put to almost half a billion 
dollars into in fiscal year 2012 or----
    General Casey. As you both know, I mean, this is a very 
complex program. It is a development program with other 
countries that have interest in it. There are cancellation fees 
and things that had to be taken into consideration. And the 
Department has worked all of those issues and come to the 
conclusion that this is the best way to proceed with the 
program.
    Mr. Hunter. By spending almost a billion dollars on 
something we are not going to produce?
    General Casey. But that will allow us to meet our 
obligations to these other countries.
    Mr. Hunter. So we are doing it for these other nations' 
interest?
    Secretary McHugh. If I may, the $800 million proof of 
concept that you mentioned we are not convinced is viable. The 
history of this program has been one as it has been related to 
me were milestones that were set out and determined were rarely 
reached in the timeframe in which they were defined and proof 
of concept may well be yet another one of those. The investment 
of the $400 million was the--as the chief said, a decision as 
to how do we most wisely terminate this program.
    If we withdrew this year, there are substantial withdrawal 
fees that the United States would have to bear and pay into the 
program that would not make it a wise decision.
    Mr. Hunter. Would you call it a bad deal then from the very 
beginning kind of? I mean, to----
    Secretary McHugh. Well, I think the--I wasn't there at the 
time, Congressman Hunter. Obviously anytime you--anytime you 
spend over $2 billion and dedicated a decade and you have 
little to show for it beyond the technology package was why the 
Department decided to spend the $400 million. It is probably 
not what you would want to design your procurement programs to 
be, but I think in the beginning you had three key allies--the 
Germans, the Italians, the Americans--working together to try 
to cooperatively do something that maybe they wouldn't have 
taken up jointly and for a variety of reasons that I don't 
pretend to totally understand. It has been a non-performing 
program.
    Mr. Hunter. Okay. Next question, something totally 
different having to do with Reserves, National Guard, Army 
drawdowns as we exit Iraq and hopefully victoriously leave 
Afghanistan in the next decade or so. How are we going to make 
sure this time that we don't let our National Guard and 
Reserves fall into disrepair especially National Guard which 
are your shooters?
    General Casey. Yes.
    Mr. Hunter. I mean, it is just a huge burden--I wouldn't 
call it a burden. I would call it a privilege that they have 
had to serve as main frontline soldiers especially in 
Afghanistan and Iraq. How are we going to make sure that they 
don't fall into the same slump that they sink to every time we 
exit a war?
    General Casey. That is a great question because they have 
been full participants in this war. I mean, the Guard itself 
has over 600 killed, 5,000 wounded and I just talked to all of 
the tags a couple of days ago and we talked about exactly this.
    We all believe that we do not want the Guard and Reserve to 
go back to being just a Strategic Reserve. We have invested $28 
billion just in Guard equipment in the last 5 years. We have to 
figure out how to leverage that investment and we commissioned 
a study, the Secretary and I, oh, about a year ago now where we 
asked a former Chief of Staff of the Army, a former Chief of 
the Army Guard and former Chief of the Army Reserve to go back 
and tell us what should be the role of the Guard and Reserve in 
an area of persistent conflict when repeated deployments are 
the norm.
    And they came back and gave us some great insights and one 
of the most important insights that they gave us was that we 
are going to have some forces that are going to deploy and 
those forces will be resourced and to do what they need to do 
and be well trained and equipped so they meet the needs of that 
deployment. And we have designed the Army since the early 1970s 
not to be able to go to war without the Guard and Reserve.
    And I think you know our force structure is very heavily 
weighted with Guard and Reserve filling the combat supported 
combat service for functions. And so there is one level. They 
are going to get funded. They are going to go.
    Now, the question then becomes, okay, how much readiness do 
you build in the next decade to deploy forces and we need a 
model that allows us to sustain their combat edge that they 
have built over the last decade, but then also only to build 
the readiness we need when we need it and we are actively 
working on that model with the Guard and Reserve, but we are 
absolutely committed that we don't want the Guard and Reserve 
to go back to being just a Strategic Reserve.
    Mr. Hunter. Great. And please let me know how we can help. 
Mr. Walls and myself are the co-chairs of the National Guard 
Reserve Caucus now and any way that we can help you with that 
or work with you on that, we would be happy to. Thank you. 
Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman and Secretary McHugh. 
And especially General Casey, seeing that you are going to 
retire soon, thank you so much for your 4 decades of service to 
the United States Army.
    First of all, Secretary McHugh, I share with you the 
condolences to the families that were killed in the Fort Hood 
shooting that happened last year--I am sorry, on November 5, 
2009--and the report of Major Hasan is--I believe it is still 
restricted and it is merely an analysis of his personnel record 
with no references to the incident itself. And if it is still 
restricted, I would ask you to make that available to the 
American people. I think they have a right to know and I don't 
see anything relevant to national security nor relevant to the 
case that is in this report.
    It is, in fact, embarrassing to the United States Army to 
have missed so many, I think, cues as to the radicalization of 
Major Hasan and I believe that corrective action is being taken 
in that regard. I certainly hope that it is. Secretary.
    Secretary McHugh. The release of information is really 
controlled by the interpretation placed on it by the legal 
authorities as to the possible effect it might have at this 
time with respect to public release with the prosecution for 
the crimes allegedly committed by Nidal Hasan. That was a 
decision made by the Office of General Counsel, DOD and others, 
and at such time that I would assume that those circumstances 
no longer exist, release of appropriate redacted information I 
feel comfortable will occur. I just can't tell you when the 
lawyers----
    Mr. Coffman. I thank you, Mr. Secretary. I just want to say 
that that is an abuse of the authority of the chief legal 
counsel of the Department of Defense to have made that 
decision, which I believe is a political decision, and really 
has nothing to do with the case.
    Let me go to a question concerning our--I believe we have 
four brigade combat teams still in Europe and General Casey, I 
think I was--you were second lieutenant when I was a private in 
the United States Army. And during the Cold War, you and I know 
it is pretty damn cold being on that border of Czechoslovakia--
rotating on that border during that period of time in the early 
1970s, but we still have four brigade combat teams and the Cold 
War has long since been over with.
    And I know in the Quadrennial Defense Review, they 
supported keeping those troops there, but in a recent GAO 
[Government Accountability Office] study, it said that GAO 
concludes keeping two brigades in Germany costs $390 million 
more per year than basing them in the United States. And so I 
would really ask you to take a look at whether or not we ought 
to redeploy some of those forces back to the United States. Do 
you have a response to that?
    General Casey. I think you--you know, Congressman, this is 
something the Department of Defense has been working on for a 
while and I think they are getting relatively close to making a 
decision on what, if any, of those forces would return.
    Mr. Coffman. Very well. Thank you. You know, my final 
question, for Secretary McHugh or General Casey, the Joint 
Light Tactical Vehicle program has been subject to cost 
overruns, milestone delays, ambiguous capability requirements, 
you know? I think that right now the projected base unit cost 
of the JLTV is $300 to $4,000--$300,000 to $400,000 per copy. 
And you know and I know historically these costs will rise over 
time. What is the future of this program and how will the army 
manage cost increases? What is the long-term ground vehicle 
strategy for the Army regarding HMMWVs, MRAPs and JLTVs?
    Secretary McHugh. A good question there. The Army is still 
committed and we are still working with the Marine Corps on the 
development of the JLTV. Your observations about cost overruns 
is accurate and it in large measure goes back to what we had 
discussed earlier in this hearing with respect to unrealistic 
requirements. I think they have reconfigured that.
    We do expect a lot of the JLTV. It shares several hundred 
requirements with the MATVs, with the--MRAPs that we think are 
performing so magnificently, but it has its own unique aspects 
as well. We are trying our best to control that and we look 
forward to its fielding. It will be ultimately the replacement 
for the HMMWV with far more survivability with off-road 
capability that the HMMWV does not have and we see it as part 
of our future fleet.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you. Mr. Gibson.
    Mr. Gibson. Thanks, Mr. Chairman. I appreciate the 
witnesses being here today. I have learned a great deal and I 
want to thank you for your leadership. I also want to express 
my support and admiration for those you lead. I think it was 
particularly noteworthy that you brought these fine non-
commissioned officers here to remind us to keep it real as we 
are going through this here today. Thank you for your service. 
And we remember the families too and I thought it was very 
touching that you brought one of our Gold Star family leaders 
here today. We will always remember.
    You know, I also want to appreciate the work that went into 
preparing the budget. This is really a different time over the 
last decade. We are doing more with less and we are all 
committed. I think everybody on this committee and beyond is 
committed to protecting our cherished way of life, but we also 
know that the deficit is a threat to our way of life.
    So towards that end, the judgment that you showed to deal 
with the declining President's budget numbers is appreciated. 
You know, my question has to do with the future of the Armed 
Forces and here today the Army and looking forward to 2014, 
2015 and beyond at a time when we have accomplished our 
objectives in Iraq and Afghanistan and we think about the force 
that we are going to need.
    I affiliate to some degree with the--he would--any future 
Secretary of Defense would be crazy if he gave a recommendation 
that we send a land army or send our Army to the land forces in 
Asia or to Africa, you know, I think to the degree that we 
avoid a decade-long counterinsurgency effort is something we 
ought to be trying to do.
    I think there are better ways to neutralize the Al Qaeda 
threat, but having said that, so much of the international 
order is really based on deterrence and to have demonstrated 
capability to put together a con-op where the Nation has the 
ability from joint forcible entry to campaigning to sustaining 
and post-hostilities, I think, will go a long way to keeping 
peace, particularly when you think about the instability in the 
world and the potential interests of nations that may want to 
take advantage of certain circumstances.
    So looking out in 2014 and 2015 and beyond, General, how do 
you assess our ability to conduct these kind of operations? 
Where do you think the risk is not only inside your formations 
and your institutions, but along the joint force for the 
country to be able to do this, and are you convinced that in 
the fight that we have, war gaming, exercises and other means 
to come to understanding in situational awareness on where our 
weakness and vulnerabilities are? Thanks.
    General Casey. Well, this kind of goes back to the 
discussion we were having earlier about what are we going to 
need and what kind of Army we are going to need in 2015, 2016. 
And as I mentioned, the two dominant characteristics of the 
future environment are uncertainty and complexity. And frankly, 
I believe that the Army we will have at the beginning of 2015 
will be an Army that is versatile, that is combat-seasoned, 
that is well-equipped and ready to deal with a wide range of 
challenges.
    The issue will be should we draw it down and if we draw it 
down, can we do that without damaging our capability to operate 
across the spectrum of conflict, to put together the types of 
operations that you mentioned? Because I think that is what we 
are going to need. We don't know what we are going to be doing 
in 3 to 5 years from now.
    I mean, Secretary Gates says our track record is perfect 
and I firmly believe that we will be doing something in 3 to 5 
years that none of us are thinking about today. I don't know 
what that is.
    Mr. Gibson. Are you convinced that in the FYDP [Future 
Years Defense Program] you have got the war gaming, the 
modeling, the simulation, the exercises to show that we have 
this capability? And, for example, to put a finer point on a 
couple of these things, are you convinced we have got enough C-
17s [Boeing Globemaster military transport aircraft], vessels 
that we have got the command and control in the like that we 
are going to be able to put this together?
    General Casey. No, I appreciate what you are saying there 
and there are studies and models that do the kinds of things 
you are saying, but what I found in my 4 years here is they are 
still largely weighted toward a conventional military operation 
and we have been working with others over time to build models 
that actually reflect the kinds of operations that we are going 
to be doing--we think are hybrid-type operations. They are 
not--there will be a mix of conventional irregular criminal 
terrorists, all arrayed against us asymmetrically, but we don't 
have good models for those to your point.
    Mr. Gibson. Well, thank you very much for that testimony, 
and I think to the degree that we demonstrate competency on 
that, I think it will reinforce what our diplomats are doing 
for us and we will be a strong Nation. And I think we can 
protect our cherished way of life in a manner that is 
consistent for a republic and not an empire. I yield back.
    The Chairman. Thank you very much. I see no further members 
of the committee to ask questions. I thank you for your time 
here today. Thank you again for your service. I look forward to 
working with you as we move through the budget process and this 
committee will stand adjourned.
    [Whereupon, at 12:43 p.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                             March 2, 2011

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 2, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 65111.061
    
    [GRAPHIC] [TIFF OMITTED] 65111.062
    
    [GRAPHIC] [TIFF OMITTED] 65111.063
    
    .eps[GRAPHIC] [TIFF OMITTED] 65111.064
    
    .eps[GRAPHIC] [TIFF OMITTED] 65111.001
    
    [GRAPHIC] [TIFF OMITTED] 65111.002
    
    [GRAPHIC] [TIFF OMITTED] 65111.003
    
    [GRAPHIC] [TIFF OMITTED] 65111.004
    
    [GRAPHIC] [TIFF OMITTED] 65111.005
    
    [GRAPHIC] [TIFF OMITTED] 65111.006
    
    [GRAPHIC] [TIFF OMITTED] 65111.007
    
    [GRAPHIC] [TIFF OMITTED] 65111.008
    
    [GRAPHIC] [TIFF OMITTED] 65111.009
    
    [GRAPHIC] [TIFF OMITTED] 65111.010
    
    [GRAPHIC] [TIFF OMITTED] 65111.011
    
    [GRAPHIC] [TIFF OMITTED] 65111.012
    
    [GRAPHIC] [TIFF OMITTED] 65111.013
    
    [GRAPHIC] [TIFF OMITTED] 65111.014
    
    [GRAPHIC] [TIFF OMITTED] 65111.015
    
    [GRAPHIC] [TIFF OMITTED] 65111.016
    
    [GRAPHIC] [TIFF OMITTED] 65111.017
    
    [GRAPHIC] [TIFF OMITTED] 65111.018
    
    [GRAPHIC] [TIFF OMITTED] 65111.019
    
    [GRAPHIC] [TIFF OMITTED] 65111.020
    
    [GRAPHIC] [TIFF OMITTED] 65111.021
    
    [GRAPHIC] [TIFF OMITTED] 65111.022
    
    [GRAPHIC] [TIFF OMITTED] 65111.023
    
    [GRAPHIC] [TIFF OMITTED] 65111.024
    
    [GRAPHIC] [TIFF OMITTED] 65111.025
    
    [GRAPHIC] [TIFF OMITTED] 65111.026
    
    [GRAPHIC] [TIFF OMITTED] 65111.027
    
    [GRAPHIC] [TIFF OMITTED] 65111.028
    
    [GRAPHIC] [TIFF OMITTED] 65111.029
    
    [GRAPHIC] [TIFF OMITTED] 65111.030
    
    [GRAPHIC] [TIFF OMITTED] 65111.031
    
    [GRAPHIC] [TIFF OMITTED] 65111.032
    
    [GRAPHIC] [TIFF OMITTED] 65111.033
    
    [GRAPHIC] [TIFF OMITTED] 65111.034
    
    [GRAPHIC] [TIFF OMITTED] 65111.035
    
    [GRAPHIC] [TIFF OMITTED] 65111.036
    
    [GRAPHIC] [TIFF OMITTED] 65111.037
    
    [GRAPHIC] [TIFF OMITTED] 65111.038
    
    [GRAPHIC] [TIFF OMITTED] 65111.039
    
    [GRAPHIC] [TIFF OMITTED] 65111.040
    
    [GRAPHIC] [TIFF OMITTED] 65111.041
    
    [GRAPHIC] [TIFF OMITTED] 65111.042
    
    [GRAPHIC] [TIFF OMITTED] 65111.043
    
    [GRAPHIC] [TIFF OMITTED] 65111.044
    
    [GRAPHIC] [TIFF OMITTED] 65111.045
    
    [GRAPHIC] [TIFF OMITTED] 65111.046
    
    [GRAPHIC] [TIFF OMITTED] 65111.047
    
    [GRAPHIC] [TIFF OMITTED] 65111.048
    
    [GRAPHIC] [TIFF OMITTED] 65111.049
    
    [GRAPHIC] [TIFF OMITTED] 65111.050
    
    [GRAPHIC] [TIFF OMITTED] 65111.051
    
    [GRAPHIC] [TIFF OMITTED] 65111.052
    
    [GRAPHIC] [TIFF OMITTED] 65111.053
    
    [GRAPHIC] [TIFF OMITTED] 65111.054
    
    [GRAPHIC] [TIFF OMITTED] 65111.055
    
    [GRAPHIC] [TIFF OMITTED] 65111.056
    
    [GRAPHIC] [TIFF OMITTED] 65111.057
    
    [GRAPHIC] [TIFF OMITTED] 65111.058
    
    [GRAPHIC] [TIFF OMITTED] 65111.059
    
    [GRAPHIC] [TIFF OMITTED] 65111.060
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 2, 2011

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. SMITH

    Secretary McHugh and General Casey. The Army has initiated several 
efforts to improve contracting practices and save taxpayer resources. 
In April 2009, we formally established solicitation and contract review 
boards and oversight thresholds to improve visibility and performance 
of our contracts across the entire Army. We have also strengthened the 
Headquarters, Department of the Army Procurement Management Review 
program to ensure the Army is effectively managing its resources. In 
addition, the Army continues to implement strategic sourcing 
initiatives to achieve the benefit of cost efficiencies by 
consolidating procurements where it makes good business sense. In 
November 2010, we appointed a Deputy Assistant Secretary of the Army 
(Services) to place greater emphasis on the requirements generation, 
oversight, and management of service contracts, which account for a 
large share of DOD spending. As part of the DOD effort to achieve 
savings of $100 billion over the next five years, the Army has been a 
full partner in identifying cost savings of approximately $29 billion. 
Through comprehensive capability portfolio reviews, the Army has 
proposed savings by terminating or reducing weapons systems with 
declining relevance or unnecessary redundancy. Lastly, the Army is 
utilizing Section 852 funding to hire new Acquisition personnel, with 
the majority being contracting interns. The Army has hired over 1300 
Acquisition personnel under Section 852 authority. [See page 18.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 2, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MCKEON

    Mr. McKeon. With regard to end strength, what I would like to 
understand is the relationship between the current requirement for 45 
Active Brigade Combat Teams and the cut to end strength of 27,000 
between 2015 and 2016.
    a. If this end strength reduction happens, what will be the impact 
on the total number of BCTs and what kind of mix of BCTs can we expect 
(Heavy, Light, and Stryker)?
    b. From a force structure perspective, how do you budget in 2012, 
2013 and 2014, for an anticipated end strength reduction in 2015/2016?
    c. You have previously stated that it took ten years to grow and 
equip the force to current levels, have equipping funds already been 
reduced in the 2012-2014 timeframe that assumes that this reduction 
will take place?
    d. From a total force structure perspective, how do you plan and 
program funds in the 2012-2014 timeframe if the plan assumes that this 
troop reduction will take place in 2015/2016?
    e. What is the ``knee in the curve'' for making a decision to 
reverse this reduction and still not have a negative impact on the 
ability to train and equip?
    Secretary McHugh and General Casey. a. No decisions have been made 
as to what types of units or what installations will be impacted by the 
Secretary of Defense's announcement. There are currently 73 Brigade 
Combat Teams (BCTs) in the Army, 45 in the Active Component (AC) and 28 
in the Army National Guard (ARNG). There are 24 Heavy Brigade Combat 
Teams (17 AC/7ARNG), 40 Infantry Brigade Combat Teams (20 AC/20 ARNG), 
and 9 Stryker Brigade Combat Teams (8 AC/1 ARNG).
    b. Specific direction from the Office of the Secretary of Defense 
(OSD) is to reduce end strength by 27,000, including about 5,000 
officers and about 22,000 enlisted personnel. Reductions are expected 
to be phased in with approximately half of the 27,000 reduction 
occurring in FY15 and the other half no later than the second quarter 
of FY16. The Army is considering reducing accessions and implementing a 
myriad of voluntary and involuntary separation authorities to achieve 
the Secretary of Defense's direction.
    c/d. We are conducting deliberate analyses now to determine which 
capabilities should be reduced and how the drawdown plan will proceed. 
Adjustments to the Army's program will be captured in our Program 
Objective Memorandum (POM) 14-18 submission.
    e. Three assumptions must be achieved if the Army is to draw down 
its end strength as directed by OSD. The Army assumes that the drawdown 
in Iraq will continue and that it will be completed by 31 December 
2011. The Army also assumes that forces in Afghanistan will be drawn 
down in accordance with current administration policy. Finally, while 
we cannot predict when and where crises may occur, we do expect that in 
an era of persistent conflict Army forces could be required for a 
variety of missions but at nothing approaching the levels seen in 
recent years. If these assumptions hold true, we believe the Army is 
capable of supporting Combatant Command requirements within an end 
strength of 520,400.

    Mr. McKeon. The Secretary of Defense said at our hearing that the 
force structure reductions he announced in January will be ``conditions 
based.'' a. Please give us your definition of what ``conditions based'' 
means? Is it AFG specifically? b. What assumptions must we make about 
our force presence after 2014 in AFG to implement the cut? How does 
this relate to your recent comments that you believe the Army will 
continue to have over 50K deployed after Iraq/AFG? c. Is the end 
strength decision reversible? d. If the decision is indeed conditions 
based, how will the Army ensure we have the force structure to support 
a higher end strength in case conditions do not allow for such 
reductions?
    General Casey. The term ``conditions based'' refers to global 
demand for land forces and does not refer to any one region 
specifically. The Army makes assumptions about future demand in order 
to inform its planning efforts, and while we cannot predict demand with 
absolute certainty, we are confident that it will not reach the levels 
seen in recent years. We assume that the drawdown in Iraq will continue 
and that it will be completed by 31 December, 2011 and we assume that 
forces in
    Afghanistan will be drawn down in accordance with the current 
Administration's policy. The Army is conducting deliberate analysis, 
and will develop a phased plan with opportunities to reverse course if 
assumptions prove incorrect. We will continue to ensure that force 
requirements are sourced with trained and ready units through a 
disciplined Global Force Management process.
    Mr. McKeon. Secretary Gates recently spoke at West Point and said 
that he envisages a future ground force that will be smaller, pack less 
heavy firepower and will not engage in large-scale counter-insurgency 
wars like those in Iraq or Afghanistan. a. Do you believe that in the 
next ten years the Army will increasingly be asked to focus more on 
short-duration counterterrorism strikes and disaster relief? b. What 
size force do you believe will be required? c. In past, we have 
downsized after the war was over. But this budget puts us in 
unchartered waters. Does this concern you?
    General Casey. Due to the complexity and dynamic nature of the 
strategic environment, it is impossible to predict with certainty 
exactly the types of conflicts in which the United States may become 
involved. The Army must maintain the capability to operate effectively 
across the full spectrum of conflict, with a continued emphasis on 
partner building and engagement activities to prevent conflicts from 
occurring or escalating. The Army is conducting deliberate analysis to 
determine the optimal force mix within authorized end strength, and 
will take into account the current fiscally constrained environment. 
The Army will continue to ensure the accomplishment of its assigned 
missions, improve operational readiness to meet future demands, and 
care for the well-being of its Soldiers and their Families.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SMITH
    Mr. Smith. The Committee understands that the USMC LAV program has 
experienced significant benefits associated with Side and Wheel-well 
Armor Kits added to the USMC fleet of LAV's. These kits were developed 
by Armatec and installed at the Barstow and Albany USMC Depots. 
Further, the Committee understands that several allied countries are 
incorporating, into their LAV fleets, additional technologies developed 
by this company such as Mine Blast floor and Underbelly Protection 
Kits, Roof Mounted Blast Attenuating Seats, Armored Self-sealing Fuel 
Tanks and RPG Protection Kits. The Committee believes that these 
technologies could improve Stryker vehicle and occupant survivability 
while not compromising mobility.
    a. Could these kits be adapted for use on the Stryker vehicle? Has 
the Army worked with the USMC or ally countries to determine if these 
LAV armor solutions provide better protection than current Stryker 
armor solutions? If not, why not?
    b. If the Army has worked in coordination with the USMC LAV program 
and or ally countries to evaluate if any of these technologies could be 
incorporated into the Stryker vehicles during reset, provide the HASC 
with a summary of your findings.
    c. If the USMC and allied countries have armor solutions that 
provide better protection for their war fighters shouldn't the Army 
develop a prototype to test these technologies?
    Secretary McHugh. a. Yes, the kits could be adapted for use on 
Stryker. However, while vehicles may appear largely common, specific 
kits may not be easily applied to the other vehicles without 
significant redesign. Since the Stryker vehicles have a greater base 
vehicle protection against small arms than the USMC LAVs and the 
Canadian LAV IIIs, the armor technologies optimized for their vehicle 
systems may not be optimized or as weight efficient on the Strykers.
    b/c. Since 2002, the Army has participated and conducted technical 
exchanges with the USMC, Canada, New Zealand, and Australia under the 
Light Armor Vehicle User Nation Group that included meetings conducted 
annually in London and Ontario. In addition, the Army has conducted bi-
lateral exchanges with the Canadian Project Manager Organization-Light 
Armored Vehicle III Office under a Data Exchange Agreement on the Light 
Armor Ground Combat Vehicles. Exchanges have included technical 
approaches to enhance the force protection and survivability of our 
respective ground vehicle systems. It should be noted that vehicle 
weight, configuration, and capacity play a significant role in the 
applicability of specific kits to other vehicle systems. We will 
coordinate with the HASC staff to provide a summary of our findings.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. BARTLETT
    Mr. Bartlett. We understand that the U.S. Army has developed a 
three-phase strategy to upgrade M4 carbines with incremental 
improvements--ambidextrous fire control, bolt and bolt carrier, forward 
rail assemblies, and an upgraded operating system--over the next few 
years. Given the importance of these weapons on the battlefield, this 
improvement process is essential to ensuring our Soldiers' operational 
readiness and military capability in places like Afghanistan and 
elsewhere. But as we've witnessed with Secretary Gates' Efficiency 
Initiatives and the on-going debate about trimming programs and getting 
our spending under control, this upgrade process needs to occur in a 
cost-effective manner. Procurement decisions must emphasize efficiency 
and effectiveness. And they need to recognize that competition is an 
essential component in achieving the best value--as highlighted so 
often by Under Secretary of Defense Ash Carter. It is in that context 
that I ask you gentlemen about the Army's strategy for upgrading the 
M4. It appears that by choosing to approve only incremental upgrades 
that rely on one company's product, you have foreclosed the possibility 
of a smarter way to do business. So my questions are threefold:
    1. How aware are you of commercial off-the-shelf options in the M4 
carbine upgrade area? Have you considered that there may be readily-
available COTS solutions?
    2. We understand that the Army is fielding incremental weapon 
improvements to the M4 in Phase I and Phase II of the upgrade strategy, 
but why is there no definitive budget or timeline for Phase III when 
COTS solutions will finally be evaluated? If there is a plan for Phase 
III, can you tell us how much is budgeted and when the Army will test 
those COTS solutions?
    3. The Army recently released a draft RFP for a new individual 
carbine. That competition will take at least two years to down select 
to three potential vendors, for a competition that could ultimately 
cost $1B. At the end of that competition, the Chief of Staff of Army 
will decide between a new carbine and an upgrade. Does it make sense to 
spend 10's of millions to run an individual carbine competition only to 
turn around and potentially decide only an upgrade is required? Why 
won't the Army take the more cost effective option today and test 
commercially available kits (and individual carbines) to start by 
determining the best, most cost effective weapon, then developing a 
strategy to procure it?
    Secretary McHugh and General Casey. 1. The Army has conducted 
several market surveys and is aware of the Commercial Off the Shelf 
(COTS) components and weapons that could offer a substitute to the 
upgraded M4A1 carbine. We are pursuing a Small Arms dual approach to 
upgrade our current weapons while we simultaneously challenge industry 
through a Full and Open Competition for the next generation Individual 
Carbine (IC). The current M4A1 will be in the Army's inventory for a 
number of years, even if a new weapon is selected through the IC 
Competition. We owe our Soldiers the best weapons we can provide and 
this dual approach will accomplish that.
    2. There is currently no definitive Phase III within the M4 Product 
Improvement Program. Incorporation of a COTS solution for specific 
weapon components is planned for Phase II.
    3. The Army selects its systems through an extensive requirements 
based test and evaluation process. The pending IC competition and 
testing is estimated to cost $21.8M. The Army developed a dual path 
strategy that would maximize the ability to upgrade the M4 by assessing 
available industry capability, while simultaneously developing a new 
requirement and conducting a full and open COTS competition for a new 
IC. The planned Business Case Analysis at the conclusion of the COTS 
competition will support the Army's decision to determine the most 
prudent path forward for the Carbine program.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOEBSACK
    Mr. Loebsack. How much funding for psychological health and suicide 
prevention in the 2012 budget will be specifically targeted to the 
National Guard and Reserve?
    Secretary McHugh. The Army Reserve's FY12 budget for psychological 
health is $529K and Suicide Prevention is $3.8M.
    Mr. Loebsack. Does the Army have a detailed plan to address the 
mental health needs of the Reserve Components? Will that plan 
specifically address the unique needs and circumstances of the Guard 
and Reserve?
    Secretary McHugh. The Army has embarked on a holistic approach in 
addressing the mental health needs of the Total Force through the 
Comprehensive Behavioral Health System of Care (CBHSOC). However, 
challenges remain in providing care for Reserve Component Soldiers as 
they matriculate in and out of ``beneficiary'' status based on 
mobilization activities. Planning efforts to improve the CBHSOC include 
identifying those challenges that are unique to the Reserve Component.
                                 ______
                                 
                     QUESTION SUBMITTED BY MR. AKIN
    Mr. Akin. In recent weeks, we have heard the Secretary of Defense 
and you General speak to the need to modernize the tank into the 
future. Specifically, in the Army's budget material provided to this 
committee, the Army notes that the Abrams tank has ``virtually reached 
its upper limits for space, weight and power.'' However, there is less 
than $10 million in the FY 2012 budget request for research and 
development for Abrams Tank Modernization. This represents close to a 
$100 million reduction from previous budgets. In light of this 
significant research funding reduction, does the Army still support 
Abrams modernization?
    Secretary McHugh and General Casey. Yes. The Army is committed to 
the modernization of the Abrams. The $9.7M of Research, Development, 
Test and Evaluation (RDTE) funds requested in the FY12 President's 
Budget is sufficient for Abrams modernization because the Army 
anticipates that the majority of the $107.5M in FY11 RDTE funds will 
carry over to FY12, thereby providing sufficient funding to execute all 
anticipated FY12 RDTE efforts.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. OWENS
    Mr. Owens. MCEB-Joint Staff memo calls for ``accelerating 
commercial JTRS solutions to the field'' and setting standards to 
create a competitive environment. What actions is the Army taking to 
create a competitive environment for tactical radio market?
    Secretary McHugh. The Army is taking the following actions to 
create a competitive environment for the tactical radio market:
    The Army is working to incentivize industry to invest and also 
direct internal corporate efforts toward developing products that can 
be made available off-the-shelf to meet Service capability needs.
    The JTRS Enterprise Business Model enables companies outside the 
Programs of Record to invest/develop tactical radios according to 
technical standards determined by JTRS, and then compete to sell those 
radios to the Services.
    Each JTRS Program Office, Airborne Maritime/Fixed, Ground Mobile 
Radio, and Handheld, Manpack, Small Form Fit is intended to have a Full 
and Open Competition for Full Rate Production.
    The Army remains committed to ensuring that all capable radio 
vendors are given a fair and open opportunity to compete for the 
Department of Defense's tactical radio communication needs.
    Mr. Owens. The President's budget request for family programs is 
$200 million more than FY11, $8.3 billion in all. You yourself have 
been a particularly strong champion for Army family programs. Last year 
before our Committee you noted that if we wish to maintain our vibrant, 
all-volunteer force, ``soldiers and their families must be our top 
priority.'' Does this funding increase give your Department the 
latitude it needs to meet the commitments laid out by the President 
earlier this year, especially as they pertain to rural or underserved 
areas?
    Secretary McHugh. The Army is committed to providing the best 
possible Family Programs and services for Soldiers and Families. We 
have resourced FY12 Family Programs to provide Soldiers and Families 
with a quality of life commensurate with their level of service and 
sacrifice to the Nation. Army Family Programs serve Active and Reserve 
Component Soldiers and Families whether they reside on or near an 
installation, or are geographically dispersed. Because of their 
incredible sacrifices, the Army has committed to provide a full range 
of services to support readiness and retention and enhance resiliency.
    Soldiers and Families appreciate the wide variety of available 
programs and services. To better serve them, the Army recently 
conducted a Holistic Review of Army Family Covenant programs and 
identified opportunities to rebalance resources to improve customer 
access to available programs and services. Our efforts will ensure a 
balanced portfolio of services that are fiscally sustainable to 
strengthen Soldier and Family programs for the long term.
    Mr. Owens. It is my understanding that the Army is providing our 
sniper teams with the XM2010, which is the upgraded M24 sniper rifle, 
with increased range and lethality. The success of this program has 
been well covered in the press. I note that the President's Budget 
proposes $2M for the XM2010 in FY2012 and $2M in each of the following 
three years. It would seem to make sense to buy the XM2010 now, when 
the need by our sniper teams is the greatest, rather than spreading the 
procurement over four years. Is the $2M amount sufficient to meet the 
immediate needs of the Army? If not, should we accelerate the purchase 
of the rifles to meet the need?
    Secretary McHugh. The President's Budget requested $2M per year for 
sniper modifications beginning in FY12. This funding was not intended 
for conversion of any M24s to XM2010. Rather, it enables a number of 
improvements to the other weapons in the Army Sniper Rifle Portfolio: 
the M107 (.50 Caliber) and the M110 (7.62) Sniper Rifles. Planned 
improvements include: Lightening the M110 and procuring Sniper Weapon 
Tripods, Sniper Weapon Quick Fire Sights, Sniper Weapon Collimators and 
Sniper Mirage Mitigating Devices. The Army has sufficient funding 
programmed to meet the current requirement for the XM2010, and is 
considering additional procurements.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON
    Mr. Wilson. I am interested in the Army's effort to compete 
Contractor Logistics Sustainment and Support (CLSS) contract for Route 
Clearance Vehicles (RCV) and the Mine Resistant Ambush Protected (MRAP) 
family of vehicles which has been carried out by a single provider 
since 2003. It is concerning to learn the MRAP CLSS acquisition 
schedule is currently in its fourth delay with a new proposed date of 
April 8, 2011, for the release of a draft Request for Proposal (RFP). 
Can you tell me whether the Army is on schedule to release a draft RFP 
on April 8 and a final RFP on June 7? What do you intend to do to 
ensure the current schedule is not delayed for a fifth time?
    Secretary McHugh. Yes, the Army is on track to release the draft 
RFP in April 2011. The final RFP is still planned for release in June 
2011. There are many aspects of conducting a competitive acquisition, 
including documentation and peer reviews to ensure the RFP is fair to 
all competitors. It is imperative that the solicitation is properly 
scoped and the evaluation factors accurately reflect the criterion for 
best value during the initial planning stages of a source selection. 
The MRAP team continues to work towards a competitive procurement while 
maintaining key support to deployed forces. I have asked the Assistant 
Secretary of the Army (Acquisition, Logistics and Technology) to 
continue to monitor this competitive source selection.

    Mr. Wilson. We appreciate your commitment to providing our soldiers 
with improved small arms at both close combat range and long distance 
shots in the mountains of Afghanistan.
    a. I understand that the Army is conducting a competition that 
could determine the successor to the M-4. Please describe the 
competition and how the Army will determine whether to retain the M-4 
or begin replacing it with the new carbine?
    b. What do you see as the future for the M-4 in the next year or 
two?
    General Casey. a. The Individual Carbine (IC) program is being 
conducted as a full and open competition to ensure that the Soldier 
receives the best overall weapon at the best value to the Government. 
Full and open competition will permit the Army to exploit commercially 
available advances in small arms capabilities. On 31 January 2011 the 
Army released the initial draft ``Request for Proposal'' (RFP) to 
solicit input from industry. Industry was afforded approximately 60 
days to review the initial draft and submit questions to Program 
Manager Soldier Weapons (PMSW).
    PMSW will host an IC Industry Day on 30 March 2011 in which 35 
weapons manufacturers are expected to attend. A panel of acquisitions 
experts and program managers addressed questions previously submitted 
by industry as well as questions submitted that day.
    The Army expects to release the final RFP at the end of May/
beginning of June 2011 and will give industry 90 (ninety) days to 
submit their single weapon design that best meets the Army requirement.
    The IC Competition is a formal source selection and is expected to 
last two years, although the time frames will vary based upon the 
number of entrants received and qualified for each phase of the 
competition. The M4A1 will be tested alongside each of the competing 
designs in order to establish a baseline data set for performance 
comparison.
    The Individual Carbine competition has three distinct phases:
    Phase I consists of weapons inspections, non firing 
characteristics, facility capability, and cost/price. The most highly 
qualified candidate system will proceed to the next phase.
    Phase II: IC candidates will be evaluated against a number of 
factors, including accuracy, reliability/durability, fielding, facility 
capability, and operational and supportability impacts, management, 
price, government purpose rights, and past performance. Three candidate 
systems will enter the final ``down select'' phase.
    Down select Phase: The vendors of the three most highly rated 
candidate systems will be awarded contracts to produce limited number 
of test articles. The down select phase will include ``user in the 
loop'' testing where Soldiers will put the weapons through their paces 
in a Limited User Evaluation.
    At the end of the competition a formal business case analysis (BCA) 
will be conducted to consider the performance, life-cycle cost, and 
terms and conditions (government purpose rights) of the selected system 
as compared to the current carbine. Based on the BCA, we will determine 
if it is in the best interest of the Army to procure the winning 
carbine, and if so, what the ultimate fielding plan would be.
    b. The future of the M4 is to continue with our Product Improvement 
Program (PIP) as part of the Army's ``Dual Path Strategy.'' The M4 PIP 
includes upgrading M4s to M4A1s by adding heavy barrels, full automatic 
trigger mechanisms and ambidextrous controls. Additionally, the Army 
plans to solicit industry for upgrades to specific components to 
further improve overall system performance. The combat-proven M4/M4A1 
Carbine will remain in service for years to come. A competitive M4/M4A1 
carbine solicitation will be published later this FY to complete the 
Army's requirements for new M4A1 Carbines and to procure M4/M4A1 
Carbines for other services and foreign military sales.
    Mr. Wilson. Did the Army conduct an Analysis of Alternatives prior 
to initiating the new carbine competition? If so, will you provide the 
Committee a copy of the analysis?
    General Casey. The Army waived an Analysis of Alternatives (AOA). 
We determined that an AOA would not produce relevant information in 
support of the program since the Key Performance Parameters and Key 
Systems Attributes were baselined on the current M4 Carbine capability 
as directed by the Army Requirements Oversight Council (AROC). Instead 
the Army will conduct a Business Case Analysis using actual data 
collected during the test and evaluation of the Individual Carbine 
candidate at the conclusion of the Commercial-off-the-Shelf competition 
to determine the most prudent path forward.
    Mr. Wilson. How will the Army guarantee it does not simply award 
the contract to the lowest bidder, but focuses rather on a combination 
of quality, cost (life-cycle included), and manufacturing capability?
    General Casey. The Secretary of the Army has directed that all 
actions be taken that allow the Army to conduct a best value, full and 
open competition for an Individual Carbine. We will evaluate a number 
of source selection factors, including, price, technical performance, 
past performance, and manufacturing capability. The evaluation criteria 
and the relative weighting of the criteria will be contained in the 
final Request for Proposals. When the technical evaluation is complete, 
the procurement team will conduct price evaluations against the 
Independent Government Cost Estimate and past performance evaluations.
    Mr. Wilson. Is the infantry carbine competition fully funded in the 
proposed FY12 budget?
    a. Is the M-4 Product Improvement Program (PIP) fully funded in the 
proposed FY12 budget?
    b. Is the Continuing Resolution for FY2011 having any effect on the 
PIP or carbine competition?
    General Casey. a. Yes, the Individual Carbine (IC) competition is 
fully funded in FY12. The M4 PIP is not fully funded in the proposed 
FY12 Budget.
    b. The Continuing Resolution (CR) has not yet begun to affect the 
M4 PIP or the IC Competition at this time but an extended CR could 
delay both programs three to six months.
                                 ______
                                 
                QUESTIONS SUBMITTED BY MR. RUPPERSBERGER
    Mr. Ruppersberger. As you are aware the Air National Guard wing in 
my District is transitioning from C-130s to the new C-27J Spartan, 
specifically to address the Army's Direct Support Mission. The Army is 
spending significant operations and maintenance funding on resupply 
missions using CH-47s. Once deployed, the C-27J will relieve the strain 
on the Army CH-47 fleet and reduce the amount of contracted airlift 
missions required in-theater. Can these missions be better performed 
using more C-27s rather than CH-47s and contractor supported lift?
    Secretary McHugh. We are anticipating that the C-27J will ease the 
burden on Army CH-47 helicopters and contracted airlift missions. We 
are working closely with the U.S. Air Force so that the operational 
commanders' requirements for delivery of equipment, supplies, and 
personnel are met. Until the C-27J assumes this mission, and until the 
supported commanders gain sufficient experience with this aircraft, the 
Air Force will support with C-130 Hercules aircraft, and the Army will 
continue to augment with CH-47 and contracted airlift missions.
    Mr. Ruppersberger. Regarding the strategy for upgrading the M4. 
What is your strategy to use commercial off-the-shelf options in the M4 
carbine upgrade area? Are there readily-available COTS solutions? Could 
you outline the budget plan and timeline for each phase of the upgrade 
strategy?
    Secretary McHugh. Upgrading the M4 consists of two phases. Phase I 
is underway and does not involve a Commercial-off-the-Shelf (COTS)/Non-
Developmental Item solution. Phase I converts M4 Carbines to M4A1 
carbines through new production and modification work orders. Delivery 
of the M4A1's from the current production contract begins in mid-FY11 
and is currently funded. The Army Acquisition Objective quantities will 
be met through an acquisition competition and new production contract 
award to the existing Technical Data Package. The competition and 
funding required to support the Army's conversion of all fielded M4 
Series carbines to the M4A1 is currently programmed for FY13-17.
    During Phase II the Army will review potential COTS solutions to 
improve specific weapon components. Phase II production incorporating 
these improvements is subject to approval prior to proceeding. An 
engineering study to support the Army's decision for Phase II is funded 
and currently underway with testing scheduled to begin towards the end 
of FY11.
    Mr. Ruppersberger. Because of the 2005 BRAC, as well as standing up 
of CYBERCOM there is significant growth at Fort George G. Meade. Could 
you please provide me a status update and timeline on the replacement 
of displaced BRAC facilities as well as the impact to the MWR Fund at 
Meade if these facilities are not replaced?
    Secretary McHugh. I have asked my staff to develop a legislative 
solution for the authorization and appropriation of limited funding to 
enable the replacement of a portion of displaced Soldier assets in FY 
13. If the assets are not replaced (in addition to negative impact on 
community services) the MWR Fund will lose an important source of non-
appropriated income, estimated at $200K per year, which is used to 
support other MWR programs on Fort Meade.
    Mr. Ruppersberger. Regarding the modernization of the US Army's 
ground vehicle fleet, please explain the obstacles to further reducing 
the Army's (and U.S. Marine Corps) ground vehicle program budget 
expenditures by re-using the relevant portions of the mission systems 
software and architecture from current investments in the AH-64 Apache 
helicopter program.
    Secretary McHugh. The Army continuously seeks to improve its ground 
vehicle fleet by cross-leveling relevant technology to include system 
software and architecture from other programs whenever possible. 
Typically, obstacles preventing cross-leveling of technology between 
programs include the lack of data rights, commonality between 
architectures, and the willingness of defense contractors for different 
platforms to collaborate. There are specific obstacles to re-using AH-
64 software systems. For one, the systems used in aviation tend to be 
more complex and costly. Additionally, the cost of incorporating 
aviation systems into a truck fleet that currently exceeds 250,000 (and 
for which there is no system software requirement) would be cost 
prohibitive.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. In today's austere budget environment, can the Army 
afford to procure the Joint Light Tactical Vehicle (JLTV) at a base 
unit cost of $300-400,000 and a total unit cost of $700-800,000? I 
understand the Army plans to procure about 50,000 JLTVs.
    a. Will the additional capability provided by the JLTV over the 
HMMWV merit the significant difference in cost?
    b. When were JLTVs originally supposed to go into production?
    c. When are they expected to go into production now?
    d. Does the Army still plan to procure 50,000 JLTVs?
    e. How long is it anticipated that the Army and Marine Corps will 
use recapitalized vehicles before replacing them with JLTVs?
    f. How much will the recapitalized unarmored HMMWVs cost per unit, 
per year, until the JLTV goes into production?
    Secretary McHugh and General Casey. a. Yes, the Army can afford the 
JLTV. The total unit cost of $700K-$800K for JLTV is not accurate. The 
Army has established a cost target of $350K per-vehicle and budgeted an 
additional $60K for vehicle armor kits for a total program target cost 
of $410K per vehicle. At this target cost, the Army can afford its 
strategy to replace roughly one-third of the Light Tactical Vehicle 
(LTV) fleet with JLTVs.
    The JLTV is the next generation LTV and is being designed to 
provide the necessary leap in protection, performance, and payload to 
fill the capability gap between High Multi-Purpose Mobility Wheeled 
Vehicle (HMMWV) and the Mine Resistant Ambush Protected (MRAP) Family 
of Vehicles. In addition to providing greater mobility than the current 
Up Armored HMMWV (UAH) and MRAPs, the JLTV will provide the following: 
(1) increased payload with armor installed (3,500 to 5,100 pounds), (2) 
greater underbody protection than UAH (equal to the MRAP-All Terrain 
Vehicle threshold), (3) on-board/exportable power, (4) the advanced 
``Victory'' architecture for its Command, Control, Communications and 
Computers and Intelligence, Surveillance and Reconnaissance systems, 
(5) increased reliability, and (6) increased fuel efficiency.
    b. As of the Army's Program Objective Memorandum 12-16, the 
production of JLTV was scheduled to begin in FY14.
    c. As a result of the requirement changes captured from lessons 
learned in the JLTV Technology Demonstration (TD) phase and operational 
lessons learned in Afghanistan and Iraq, the Engineering and 
Manufacturing Development phase has been extended, moving the start of 
production to FY16.
    d. The Army continues to refine the quantity requirement for JLTV. 
However, based on operational requirements and the Total Obligation 
Authority for the Tactical Wheeled Vehicle (TWV) fleet, the Army's 
strategy is to replace roughly one-third of the LTV fleet with JLTVs 
over a 20 year period. The total number of HMWMVs to be replaced is 
projected to be approximately 40-46K after completion of the 15 percent 
reduction of the TWV fleet directed in the Army TWV Strategy.
    e. The Army will not replace all of its recapitalized HMMWVs with 
JLTVs. The Army will first replace legacy vehicles that have not been 
recapitalized, and then will begin to replace recapitalized vehicles 
approximately eight years into JLTV production. At that point the Army 
will replace unarmored HMMWVs that will have accrued roughly 20 years 
of service life since their recapitalization.
    f. The Army is still developing its HMMWV recapitalization strategy 
and has not made decisions about the recapitalization mix between 
unarmored and armored HMMWVs in the period FY13-15 before JLTV enters 
production.
    Mr. Turner. With MEADS no longer planned as the replacement for 
Patriot in the 2017 timeframe, what actions and investments are 
required by the Army, and when, to operate and sustain the legacy 
Patriot system beyond 2017? Are any of these funded in the FY12 
request? Does the Army see a need to improve or upgrade Patriot's 
capabilities? If so, what is the estimated cost of such improvements or 
upgrades as compared to the cost to complete MEADS development and 
production?
    Secretary McHugh and General Casey. The Army is taking numerous 
actions and making multiple investments to operate and sustain Patriot 
in light of the decision not to continue the Medium Extended Air 
Defense System (MEADS). These actions include upgrades to the Patriot 
system to meet the evolving threat, improving both system performance 
and mean time between failures, extending the recapitalization program 
and accelerating Patriot integration into the Army Integrated Air and 
Missile Defense System of Systems architecture.
    In the President's Budget 2012, the Army requested funding in 
support of this effort primarily for the Patriot improvement and 
sustainment efforts. Additionally, the Army will integrate the Missile 
Segment Enhancement (MSE) missile with the Patriot system to continue 
the capability evolution of Patriot's interceptor and expand the size 
of Patriot's engagement envelope. Additionally, the Army will procure 
Electronic Launcher Enhanced System (``ELES'' launcher upgrades) to 
provide Combatant Commanders with additional Patriot Advanced 
Capability-3 and MSE hit-to-kill launch capability. In total, these 
efforts will keep Patriot relevant and ready well into the future.
    The Army conducted a comprehensive analysis of cost to complete 
development, complete production, and operate and sustain MEADS 
compared to the cost to upgrade and sustain Patriot. The assessment 
concluded that, between FY12 and FY30, proceeding with Patriot is 
approximately one-third the cost of continuing MEADS. This difference 
is in large part attributable to the high cost of producing a full new 
force of MEADS equipment, versus upgrading and sustaining existing 
equipment to meet emerging threats.

    Mr. Turner. During your testimony you were confident that the Army 
would meet the 1 to 2 dwell time ratio. When will the Army meet that 
ratio? Will the Army continue to meet that ratio given the proposed end 
strength reductions? Will the Army be able to meet the 1 to 3 dwell 
time ratio before the proposed Afghanistan reductions in 2014? What 
concerns do you have about the Army's ability to meet and maintain the 
1 to 2 dwell time ratio? The 1 to 3 dwell time ratio?
    General Casey. Based on the Joint Staff projections of demand for 
forces, which includes reductions in both Iraq and Afghanistan, we 
believe we will reach our goal of 1-to-2 in late 2012. The strength 
reductions in FY15 and FY16 also assume that the demand for forces will 
decrease enough to allow us to maintain at least the 1-to-2 ratio with 
the smaller force. However, it is unlikely that we will be able to 
achieve a 1-to-3 ratio under proposed Afghanistan reductions in FY14.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. The Medium Extended Air Defense System (MEADS) is a 
NATO-managed, cooperative development program that was conceived in the 
mid-1990's to develop a ground-based air and terminal ballistic missile 
defense capability that would replace existing Patriot systems. On 
February 11, the Secretary of Defense made a decision not to proceed to 
procurement of the MEADS system. Instead, the Department plans to 
continue development though 2013 within the funding limits set forth 
under a 2005 Memorandum of Understanding (a $4B cap on total design and 
development costs). According to DOD, this would allow them to 
implement a ``proof of concept'' effort and avoid termination costs. 
However, under this scenario, the Department is still required to spend 
$804M. This raises the question of whether it is feasible in the 
current fiscal and threat environment to continue investing in MEADS. 
The Patriot system is currently fielded by the U.S. and 11 partner 
nations. It has been continuously upgraded and modernized over the 
years, much of it financed through FMS, resulting in a ``Configuration 
3+'' system that already meets most of the envisioned requirements for 
MEADS. The OSD Memo clearly lists Department's inability to afford to 
procure MEADS and make required Patriot upgrades as rationale for 
terminating the procurement of MEADS. Patriot modernization should be 
accelerated in light of the Department's MEADS decision. I applaud you 
for your decision not to proceed to procurement of the MEADS missile 
defense system. As noted in the DOD memo, the program is substantially 
over budget and behind schedule. The Department made a decision to 
complete the design and development phase of the program, which will 
require an additional $804 million across FY12 and FY13. $406.6 million 
of this is included in the FY12 budget request.
    a. If the MEADS program ends at the design and development phase 
and there are no plans to continue into production and fielding, why 
are we even continuing to fund design and development?
    b. Why should the committee authorize the FY12 budget request of 
$406.6 million for MEADS? What is the pay-off?
    c. Will DOD go back to the drawing board and try to find a way to 
ring out some additional savings out of this $800M for MEADS?
    d. The DOD memo indicates that it will be necessary to allocate 
funds for Patriot upgrades. At a minimum, will DOD work to reallocate 
funds for Design and Development for upgrades to the Patriot system?
    Secretary McHugh. a. The continued funding of the Proof of Concept 
is intended to complete prototypes of radar, battle manager, and 
launcher end items; demonstrate integration of the Missile Segment 
Enhancement interceptor; and complete ground testing and conduct two 
intercept flight tests. Information gained from the Proof of Concept 
will be used to inform future program decisions, and some MEADS 
technology developed in the Proof of Concept approach may be applicable 
to future U.S. systems. The MEADS partners will also take delivery of 
equipment and other hardware residuals from this contracted effort, as 
well as all information (including deliverable technical data) that the 
contractor is obligated to provide under the contract. Germany and 
Italy stated in discussions with the Under Secretary of Defense 
(Acquisition, Technology, and Logistics) that they would like to 
proceed to completion of the Proof of Concept. Completing the Proof of 
Concept will enable our MEADS partners to field coalition missile 
defense capability. Our MEADS partner's burden-sharing investment in 
MEADS will reduce future demands for U.S. investment to protect 
coalition forces in this ``high-demand, low-density'' force protection 
area. Additionally, the continuation and completion of the Design and 
Development will avoid the more costly termination cost required under 
the agreements in the Memorandum of Agreement.
    b. The $406.6M in FY12 funds the Proof of Concept effort to reduce 
risk and invest in Technology Development rather than absorb the 
termination costs. The Proof of Concept will mature MEADS Major End 
Items and complete some system-level integration and testing within the 
existing Design and Development (D&D) Memorandum of Understanding (MOU) 
cost constraints. This will be executed using remaining funds that 
would otherwise pay termination costs with no further benefit to the 
three MEADS partners. Collective work under the Proof of Concept offers 
pay-off benefits for all three MEADS partners, builds partner capacity 
in Air and Missile Defense, and positions Italy and Germany for 
possible future development, production, and fielding. We envision that 
the Proof of Concept development efforts will focus on completion of as 
many D&D tasks as possible within the funding limitations of the 
current D&D MOU, concluding with two flight tests of the MEADS system 
in late 2012 and mid 2013, and completion of all D&D MOU efforts by 
mid-2014.
    c. Potential Proof of Concept revisions to the D&D prime contract 
are currently in negotiations with the Partners. The NATO MEADS 
Management Agency (NAMEADSMA) will develop and negotiate a contract 
amendment consistent with the Proof of Concept scope envisioned by the 
MEADS partners.
    d. The Army is taking numerous actions and making multiple 
investments to operate, sustain and upgrade Patriot, in light of the 
decision to pursue the Proof of Concept approach and the decreased 
future funding requirement for MEADS. It should be noted, however, that 
the $804M for the MEADS Proof of Concept funding remains separate and 
does not directly sustain or upgrade Patriot.
    Mr. Shuster. The Memo accompanying your recent decision not to 
proceed to procurement of MEADS, you specifically highlighted the 
Army's inability to afford to procure MEADS and make required Patriot 
upgrades as rationale for the decision. I agree wholeheartedly with 
that assessment and commend you on your decision. It is vital that we 
continue to upgrade the Patriot system, which can provide added 
capability much sooner and at a fraction of the cost. With MEADS no 
longer planned as the replacement for Patriot in the 2017 timeframe, 
what actions and investments are required by the Army, and when, to 
operate and sustain the legacy Patriot system beyond 2017? Are any of 
these funded in the FY12 request? Does the Army see a need to improve 
or upgrade Patriot's capabilities? If so, what is the estimated cost of 
such improvements or upgrades as compared to the cost to complete MEADS 
development and production?
    Secretary McHugh. The Army is taking numerous actions and making 
multiple investments to operate and sustain Patriot in light of the 
decision not to continue the Medium Extended Air Defense System 
(MEADS). These actions include upgrades to the Patriot system to meet 
the evolving threat, improving both system performance and mean time 
between failures, extending the recapitalization program and 
accelerating Patriot integration into the Army Integrated Air and 
Missile Defense System of Systems architecture.
    In the President's Budget 2012, we requested funding in support of 
this effort primarily for Patriot improvement and sustainment efforts. 
Additionally, the Army will integrate the Missile Segment Enhancement 
(MSE) missile with the Patriot system to continue the capability 
evolution of Patriot's interceptor and expand the size of Patriot's 
engagement envelope. We will also procure the Electronic Launcher 
Enhanced System (``ELES'' launcher upgrades) to provide Combatant 
Commanders with additional Patriot Advanced Capability-3 and MSE hit-
to-kill launch capability. In total, these efforts will keep Patriot 
relevant and ready well into the future.
    The Army conducted a comprehensive analysis of cost to complete 
development, complete production, and operate and sustain MEADS 
compared to the cost to upgrade and sustain Patriot. The assessment 
concluded that, between FY12 and FY30, proceeding with Patriot is 
approximately one-third the cost of continuing MEADS. This difference 
is in large part attributable to the high cost of producing a full new 
force of MEADS equipment, versus upgrading and sustaining existing 
equipment to meet emerging threats.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. CONAWAY
    Mr. Conaway. I am pleased to read from your statement your thoughts 
on the importance of fiscal stewardship in the U.S. Army. Like you, I 
strongly support training leaders and managers to make better resource-
informed decisions. I am happy to learn that in addition to better 
training and professional development, the Army has fielded the General 
Fund Enterprise Business System to more than 11,000 users at 14 
installations. Along with the better training, this system is vital to 
ensuring Army is able to reach full auditability of its financial 
statements sooner rather than later. Investment from the Army 
leadership is important in accomplishing the full audit readiness goal. 
Like I have said in every budget posture hearing during this Congress 
and many previous Congresses, I cannot stress enough to you that making 
audit readiness a priority for the U.S. Army is a necessity. Would you 
please provide for the Committee your thoughts on the Army's audit 
program to date and how you see it moving forward?
    Secretary McHugh. The Army has a solid, achievable, and resourced 
plan to be fully auditable by 2017. The Army's plan is synchronized 
with the overall DOD Financial Improvement and Audit Readiness (FIAR) 
Plan and provides detailed milestones and organizations responsible for 
ensuring the milestones are met.
    Our plan provides necessary training to Army personnel to ensure 
these personnel understand how to manage the Army's financial resources 
in a manner that is transparent and auditable. The plan stresses the 
importance of establishing and maintaining a compliant control 
environment that will meet or exceed audit standards. To meet the 
objective of establishing an effective internal control environment, we 
are implementing the General Fund Enterprise Business System (GFEBS), 
evaluating existing internal controls, and implementing corrective 
actions where controls do not meet standards. Moreover, we are training 
personnel to maintain and operate within the required, disciplined 
control environment.
    Additionally, our audit readiness plan includes a series of four 
successive financial statement audits, conducted by an independent 
public accounting firm (IPA) in FY11 through FY14. The IPA audits will 
validate the efficacy of our control environment, training and GFEBS 
implementation. The audits will disclose underperforming areas and 
recommend corrective actions. The cumulative effect of training, 
controls, GFEBS fielding and independent audit testing will enable an 
audit ready environment by FY17.
    In executing this audit readiness plan, the Army has achieved 
several significant accomplishments. First, as of 30 Sep 2010, the Army 
asserted the audit readiness of the Appropriations Received line on the 
General Fund Statement of Budgetary Resources, which totaled $231.9 
billion in FY10. OUSD(C) has validated this assertion package and on 27 
Apr 2011 an independent public accounting firm began an audit of this 
line item. In addition, the Army asserted, as of 31 Mar 2011, the 
existence and completeness of eight aviation programs, which includes 
more than 2,400 mission critical assets. OUSD(C) and DOD IG are 
currently validating this assertion package and DOD IG will begin an 
audit of this assertion in in the fourth quarter of FY11. Finally, the 
Army is in the process of beginning the first of several interim audit 
readiness examinations of the funds distribution and budget execution 
processes at sites where GFEBS was first implemented, known as GFEBS
    Wave 1 installations. OUSD(C) and DOD IG are currently validating 
this assertion package and OUSD(C) is progressing through the 
procurement process to contract an IPA to begin this examination in 
June 2011.
    By achieving these important milestones, the Army has demonstrated 
that its audit readiness plan will result in the appropriate outcomes, 
as defined by Congress and USD(C). These milestones are critical first 
steps in confirming the effectiveness of the Army's plan and gaining 
the necessary momentum to enable future audit readiness success across 
the Army.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COFFMAN
    Mr. Coffman. General, various ground vehicle programs are currently 
being developed by the U.S. Army. Additionally, modernization efforts 
are also underway for some ground vehicle platforms, including the 
Bradley Fighting Vehicle, the Abrams Main Battle Tank, and the Stryker. 
How will the Army ultimately reconcile the existing ground vehicles, 
updated/modernized ground vehicles, and ground vehicles currently being 
developed into a comprehensive and cohesive ground vehicle strategy? 
Please specifically address the future of Abrams Main Battle Tank, 
Bradley Fighting Vehicle, Ground Combat Vehicle, MRAP/MATV, Stryker, 
Joint Light Tactical Vehicle, and the HMMWV.
    General Casey. The Army's Combat Vehicle Modernization Strategy 
represents a holistic approach to the development of the Ground Combat 
Vehicle, replacement of the M113 Family of Vehicles and the incremental 
modernization of the Bradley, Abrams, Paladin, and Stryker. 
Modernization imperatives across the fleet include improved protection, 
mobility and sustainment, mitigation of existing Size, Weight and Power 
(SWaP) shortfalls and Network integration. In addition, the Army has 
developed and published a comprehensive Tactical Wheeled Vehicle 
Strategy aimed at providing an affordable plan to achieve and sustain 
the capabilities that the Army will need through FY25.
    The Ground Combat Vehicle will replace the Bradley Infantry 
Fighting Vehicle (IFV) and will be the cornerstone of modernization for 
the Combat Vehicle fleet. The four imperatives of the Ground Combat 
Vehicle are: 1) MRAP like protection, 2) a nine man squad carrying 
capacity, 3) full spectrum operations capability, and 4) development in 
seven years. The Ground Combat Vehicle will be built with capacity to 
grow in weight and power requirements through modernization as future 
technologies mature.
    The Army is considering options for the modernization of the 
M1A2SEP v2 tank and is currently evaluating technology alternatives. 
The application of new technologies will be synchronized with the next 
recapitalization opportunity for the oldest tanks in the fleet.
    Bradley modernization will address buy-back of SWaP for Non-IFV 
Bradley variants (Cavalry, Fire Support and Engineer) to improve 
protection, mobility and integrate the emerging network.
    M113 replacement will initially focus on Heavy Brigade Combat Teams 
(HBCT) using a material solution that provides necessary protection, 
mobility, and interoperability to operate in the Ground Combat Vehicle-
equipped formation.
    Stryker Modernization includes buy-back of SWaP and will leverage 
the development effort of the Double V Hull. Additionally, the Army 
will consider engine and drive train upgrades to improve mobility and 
enable network integration.
    The Army plans to retain and use most of its MRAP/M-ATV fleet for 
the next 15 years and potentially beyond. A small number of MRAPs that 
are uneconomical to maintain and/or upgrade will be divested once they 
are no longer required for wartime service. The majority will be 
maintained by the Army, some as organic unit equipment and some in 
augmentation sets to be used when required. As requirements in Iraq and 
Afghanistan decline, MRAPs will be reset to eliminate maintenance 
deficiencies; when feasible and affordable, safety and automotive 
upgrades will also be applied.
    The Joint Light Tactical Vehicle (JLTV) is the Army's next 
generation Light Tactical Vehicle (LTV) and is being designed to 
provide the necessary capability in protection, performance and payload 
to fill the capability gap remaining between the HMMWV and MRAPs. The 
JLTV program is scheduled to enter the Engineering and Manufacturing 
Design phase of development in FY12 and begin Low Rate Production in 
FY16. The Army plans to replace approximately one-third of the HMMWVs 
in its LTV fleet over a period of 20 years.
    The HMMWV is the Army's current LTV and will continue to serve in 
the force for the foreseeable future. The Army TWV Strategy calls for 
an approximately 15% reduction in its Tactical Wheeled Vehicle fleet, 
which will result in an LTV fleet size of roughly 120,000 vehicles. 
HMMWVs will continue to make-up two-thirds of this fleet after the 
Army's planned procurement of JLTV. HMMWVs will continue to be used for 
operational deployments as the mission and threat situation allows and 
will serve prominently in the Homeland Defense and Disaster Relief 
mission roles. The Army will continue to recapitalize its HMWMV fleet 
to extend its service life and is conducting research for a Competitive 
HMWMV Recap program to potentially increase HMMWV protection to near-
MRAP levels.
    Mr. Coffman. General, how important are initiatives such as the 
Yellow Ribbon program at the state level in reintegrating National 
Guard soldiers when they return from combat operations?
    General Casey. At the state level, the Yellow Ribbon Reintegration 
Program has proven to be an invaluable resource and tool for our 
Warriors and Families. Programs like the Yellow Ribbon program are an 
integral part of our efforts to build resilient Families and Army 
Strong Soldiers who can endure the mobilizations, separations, and 
sacrifices we ask of them as part of their selfless service. We 
continue to work to provide Soldiers and Families, their employers and 
local communities some stability and predictability. This allows them 
to pursue both their military and civilian careers. Participating in 
Yellow Ribbon events provide attendees with information and services, 
opportunities for referral and proactive outreach from our commands and 
our communities. Our events rely on the support and involvement of 
command staffs, employers, community partners and a host of volunteers. 
The goal is to build skills in each Family member and Soldier to assure 
they are prepared and able to cope with the difficulties of extended 
separation and deployment. We help Families network together, connect 
with each other and keep the Families connected with their unit/command 
and Family Programs' Office/staff during the deployment of their 
Soldiers. We concentrate on assisting Families and Soldiers to help 
with reuniting, reconnecting and reintegrating them into a ``new 
normal.'' Lastly, we attend to both the Family members' and Soldiers' 
physical, behavioral and mental health needs. We utilize trained 
professional speakers and briefers from federal agencies and local, 
state, and national agencies, to come to units or regional venues to 
educate and assist attendees with knowledge, skills and practical, 
hands-on participation to meet the goals stated above.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. RIGELL
    Mr. Rigell. I would like to commend the Army on their quick and 
appropriate response to addressing the increased threat of Improvised 
Explosive Devices (IED) and other heat hazards facing our soldiers in 
Operation Enduring Freedom (OEF). Notably, policies put in place to 
ensure that flame resistance is integrated into a soldier's uniform 
have helped to greatly mitigate the number of soldiers suffering life 
altering or ending burn injuries.
    a. To this end, it is my understanding that currently, only 
aviators and combat vehicle crewmen receive the Fire Resistant 
Environmental Ensemble (FREE) that protects soldiers from heat and burn 
threats, and provides critical warmth and mission readiness 
capabilities. Could you please clarify if this is correct?
    b. Please also comment if the Army has a plan to provide this or a 
similar flame resistant cold weather clothing systems to all soldiers 
deployed in OEF.
    General Casey. a. Only aviators and combat vehicle crewmen are 
issued the FREE System, however, all Soldiers deploying in support of 
OEF are issued Flame Resistant (FR) Uniforms to include gloves, light-
weight performance hood, FR boots, and FR Army combat shirts. Depending 
on the Military Occupational Specialty (MOS) and mission, all deploying 
Soldiers are fielded either the Flame Resistant Army Combat Uniform (FR 
ACU), the Army Aircrew Combat Uniform (A2CU), or the Improved Combat 
Vehicle Crewman (ICVC) uniform). All Soldiers are protected in their 
operating environments.
    b. Yes, the Army has a plan to provide similar flame resistant cold 
weather clothing system to all Soldiers deployed in OEF. The Army is 
currently pursuing efforts to integrate FR capabilities into the outer 
layers of the Extended Cold Weather Clothing System (ECWCS) seven-layer 
system. The improvement is currently in research and development (R&D) 
and, when available, will be issued to all deploying Soldiers.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MRS. HARTZLER
    Mrs. Hartzler. With the proposed repeal of the DADT policy, what 
changes to facilities are you contemplating to address the privacy and 
concerns of service members?
    General Casey. We are not contemplating any changes to facilities. 
This is supported by the Comprehensive Review Working Group (CRWG) 
recommendation that no ``new construction or modifications to 
facilities beyond low-cost, unit-funded adaptations'' to improve 
privacy was required to address the concerns of Soldiers. Although not 
related to the implementation of the repeal of DADT, the DOD Unified 
Facilities Criteria requires all new, unaccompanied, permanent housing 
be designed to afford Soldiers private bedrooms and a bathroom shared 
by not more than one person, which will provide greater privacy.
    Mrs. Hartzler. Will chaplains of all faiths be required to conduct 
diversity training programs that promote homosexual conduct as 
equivalent to heterosexual conduct, or will there be a right to refuse 
such responsibilities in educational programs?
    General Casey. Chaplains will continue to have freedom to practice 
their religion according to the tenets of their faith. In the context 
of their religious ministry, chaplains are not required to take actions 
that are inconsistent with their religious beliefs (e.g., altering the 
content of sermons or religious counseling, sharing a pulpit with other 
chaplains or modifying forms of prayer or worship).
    Chaplains of all faiths care for all Soldiers and facilitate the 
free exercise of religion for all personnel, regardless of religious 
affiliation of either the chaplain or the individual.
    Chaplains minister to Soldiers and provide advice to commanders on 
matters of religion, morals, ethics and morale in accordance with (and 
without compromising) the tenets or requirements of their faith. 
Chaplains faced with an issue contrary to their individual faith may 
refer the Soldier to other appropriate counsel.
    Mrs. Hartzler. If chaplains do have a right to refuse such 
responsibilities, will they suffer career penalties for exercising it?
    General Casey. Implementation of the repeal of DADT will require no 
change in chaplains' responsibilities or flexibility in serving 
Soldiers. Chaplains of all faiths care for all Soldiers and facilitate 
the free exercise of religion for all, regardless of religious 
affiliation of either the chaplain or the individual; hence, chaplains 
will incur no career penalties for practicing the tenets of their faith
    Mrs. Hartzler. What costs do you anticipate it costing to make 
these changes?
    General Casey. No funds will be separately requested for 
construction of facilities as a result of the Don't Ask Don't Tell 
Repeal Act.
    Mrs. Hartzler. What is the estimated number of man-hours that will 
be needed to implement each phase of the three-tier training program?
    General Casey. Current analysis indicates that Tier 1 education 
sessions are taking an average of 1.5 hours to complete; Tier 2 
education sessions require an average of 2.5 hours, and Tier 3 
education sessions are taking about an hour. Using the most recent 
reporting numbers from the force: 66,093 Soldiers completed Tier 1 
training; 44,894 completed Tier 2; and 1,019,013 completed Tier 3. We 
estimate Tier 1 man-hours at 99,140; Tier 2 man-hours at 112,235; Tier 
3 man-hours at 1,019,013 with a grand total of 1,230,388 man hours to 
date.
    Mrs. Hartzler. What is the estimated number of military commanders 
likely to suffer career-ending consequences for disagreement with the 
repeal of the DADT law and policies?
    General Casey. The Army has no such estimate and has no way of 
knowing. Commanders are expected to emphasize Soldiers' fundamental 
professional obligations and the oath to support and defend the 
Constitution that is at the core of their military service.
    Mrs. Hartzler. Given what is known about the normal human desire 
for privacy in sexual matters, why would policies requiring the 
constant cohabitation of mixed sexual orientation groups not undermine 
morale, disciple, and readiness, recruiting, and retention?
    General Casey. Service in the military makes it necessary at times 
for Soldiers to accept living and working conditions characterized by 
little or no privacy. The Army will not establish facilities, quarters, 
berthing or practices based on sexual orientation. Commanders retain 
the authority to address individual cohabitation concerns on a case-by-
case basis regardless of the sexual orientation of the affected 
Soldiers.
    The Army Guiding Principles for Implementation of the Repeal of 
DADT include: standards of conduct will apply to every Soldier; all 
Soldiers must treat each other with dignity and respect; our role as 
professional Soldiers is emphasized; and good order and discipline will 
be maintained at all times. The clear message is that respecting each 
other's rights within a closed space is critical to maintaining good 
order and discipline. Standards of conduct apply equally to all 
Soldiers and inappropriate conduct should be corrected appropriately. 
If a Soldier has a concern with a billeting or work arrangement for any 
reason, he or she should address those concerns appropriately within 
the chain of command. Commanders may use discretion in personnel 
assignments to berthing, housing and other facilities to maintain 
morale, good order and discipline based on Army policies and space 
available.
    Mrs. Hartzler. How would these changes improve the All-Volunteer 
Force?
    General Casey. It is currently too early to determine its effects 
as the policy has not gone into effect. We have a training strategy/
plan that should allow the transition to the new policy with minimal 
disruption. The policy as currently crafted, which is limited in scope 
(in that gays/lesbians are not a special class), should have a neutral 
impact during the training/transition period.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. RUNYAN
    Mr. Runyan. Could you please give your assessments of the impact of 
proposed DOD and Army efficiencies on Joint Base McGuire-Dix-Lakehurst?
    Secretary McHugh and General Casey. It is too early in the process 
for an assessment regarding DOD and Army efficiencies at the Joint Base 
McGuire Dix Lakehurst (JBMDL). JBMDL reached Final Operational 
Capability (FOC) on 1 Oct 2009 with the Air Force as the lead. 
Projected efficiencies associated with Joint Basing will not be 
realized until two to five years after achieving FOC.
    Mr. Runyan. As BRAC 2005 winds down, what is your assessment on 
whether Joint Basing is producing the operational benefits and cost 
efficiencies that were expected more than five years ago? Is the Army 
transferring funds to the Air Force, Navy, and Marine Corps to pay for 
valid Army Military Construction requirements at Joint Bases? How about 
the reverse--has the Army received any MILCON fund transfers from other 
Services?
    Secretary McHugh and General Casey. Although we do not have enough 
data to conclude that Joint Bases are achieving the expected benefits 
and efficiencies, early indications show that some operational benefits 
are being realized. Joint Base Commanders are using ingenuity to 
optimize the delivery of installation support. The Army has transferred 
funds to the Service lead for valid Army Military Construction 
requirements.
    Mr. Runyan. Are you confident that the budget cuts contained in the 
FY12 request will not force the Reserve Components to go back to the 
pre-September 11th days of a hollow, ``Strategic Reserve'' force? What 
metrics or leading indicators will you be monitoring to ensure that the 
Reserve Components remain a viable, operational force that is fully 
part of the Total Army?''
    Secretary McHugh and General Casey. The steady, consistent, and 
recurring demand for Reserve capabilities during almost a decade of war 
required us to integrate our Reserve forces into our operational 
expeditionary Army. Congressional support for Overseas Contingency 
Operations resources enabled us to address incremental funding 
challenges. Most of the incremental costs were a result of needing 
additional man days (above the statutory 39 per year) to achieve higher 
readiness levels. During POM 12-16, the Army validated Operational 
Reserve training requirements in the base program for the first time. 
The majority of our Reserve Component units are still funded at the 
``Strategic Reserve'' level in the FY12 Base Budget but have achieved 
higher levels of readiness using OCO funding. As part of the POM 13-17 
build, the Army tasked the Reserve Chiefs to assess how much of the 
Operational Reserve requirements they can fund within existing 
resources. We have not yet determined which Army programs will be 
decreased or eliminated to fund the Reserve Components above the 
current ``Strategic Reserve'' levels, but we expect to make those 
decisions as part of the FY13 budget submission. We are working closely 
with OSD to determine what the future requirements will be for our 
Reserve Component and how to best achieve affordable access for the 
full range of assignments.
    Mr. Runyan. How does the Army plan to integrate the Russian Mi-17 
into the Army operational and logistical system? Have you established a 
separate program office?
    Secretary McHugh and General Casey. There are no plans to integrate 
the Mi-17 into the Army Operational and Logistical System. The Army was 
designated as the lead Service for the Mi-17 and other Non-Standard 
Rotary-Wing Aircraft in an Acquisition Decision Memorandum (ADM) dated 
19 January 2010. The lead Service responsibilities outlined in the ADM 
include procurement, training, and sustaining of Non-Standard Rotary 
Wing Aircraft for partner nations in support of Department of Defense's 
(DOD's) enduring Security Force Assistance (SFA) requirements. In order 
to facilitate lead Service responsibilities, the Army established a 
Project Management Office to support DOD's global Non-Standard Rotary 
Wing SFA programs. As identified in the Quadrennial Defense Review, 
building partner nation vertical lift capabilities through SFA programs 
will likely continue into the future. Building a partner Nation's 
sustainment is a key capability and the primary method of building a 
Non-Standard Rotary Wing sustainment capability is through Contractor 
Logistics Support (CLS). The Army Deputy Chief of Staff for Logistics, 
G-4, has identified CLS as the most cost effective and dependable means 
to sustain low density, high demand, critical components and repair 
parts that require airworthiness certification.
    Mr. Runyan. Will the logistical support for the Mi-17 aircraft be 
integrated into the normal Army aviation logistics system?
    Secretary McHugh and General Casey. Logistics support for the Mi-17 
will not be integrated into the normal Army aviation logistics system. 
The logistics and sustainment support for each partner nation or 
customer will be accomplished through a Contractor Logistics Support 
(CLS) Contract executed through the Non-Standard Rotary Wing Program 
Manager's Office with approved sources of supply. Each partner Nation/
customer will determine the level of CLS required to support their 
Nation's sustainment strategy. The Department of Defense's assigned 
Security Force Assistance Team helps them develop their logistics and 
sustainment strategy through detailed capability and requirements 
analysis.
    Mr. Runyan. Why was the Mi-17 program changed from NAVAIR to the 
Army?
    Secretary McHugh and General Casey. The Mi-17 program was not 
changed from NAVAIR to the Army. The NAVAIR was directed to procure 21 
Mi-17 helicopters for Afghanistan in 2009, but was not assigned as a 
project office nor as the lead Service. This procurement was prior to 
the establishment of the Non-Standard Rotary Wing Aviation Program 
Management Office (NSRWA PMO) and a decision was made not to move the 
NAVAIR procurement to the Army after the NSRWA PMO was created. The 
Department of Defense did not want to impact the Mi-17 procurement. The 
NAVAIR procurement strategy was to procure commercial Mi-17 helicopters 
and modify them for military use. However, based on diplomatic 
communications between the U.S. Ambassador to Russia and the Russian 
Minister of Foreign Affairs in 2010, it was determined that the NAVAIR 
procurement approach would not be feasible. Russian Federation Law 
requires that all military end use helicopters be procured through 
Rosoboronexport, a state owned organization responsible for the export 
of all military end use items from the Russian Federation. Based on 
this information, the Defense Acquisition Executive signed an 
Acquisition Decision Memorandum directing NAVAIR to cancel its 
procurement and directing the Army to begin a new procurement for 
military Mi-17 helicopters for the Afghan Ministry of Defense in 
accordance with Russian Federation law.
    Mr. Runyan. Is the Mi-17 program a government to government program 
with the Russian government?
    Secretary McHugh and General Casey. The current Mi-17 procurement 
effort for 21 helicopters and airworthiness assurances are being 
conducted between the U.S. Army's Non-Standard Rotary Wing Aviation 
Program Management Office (NSWRA PMO) and the Russian Federation's 
Federal Service for Military and Technical Cooperation. In addition, 
the NSWRA PMO is negotiating a contract with Rosoboronexport for the 
procurement of 21 military use Mi-17s for Afghanistan. This contract 
will include the procurement of 21 Mi-17's, with an option for 12 
additional Mi-17's, critical Mi-17 spare parts and engineering 
services.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. WEST
    Mr. West. The recent developments across North Africa, the Middle 
East, the Korean Peninsula, and in the SOUTHCOM AOR have one common 
geographical aspect--the littorals. Is the Army looking ahead and 
considering how they can be deployed into the littorals using force 
projection and forcible entry from the seas? I specifically would like 
to know about training, equipment modernization, and joint coordination 
exercises.
    Secretary McHugh and General Casey. Typically, the Army plays a 
limited role during forcible entry operations from the seas into the 
littorals. The Army maintains capabilities in general purpose forces to 
conduct forcible entry by air borne and air assault operations and 
these forces could support forcible entry operations in littorals. 
Seldom would airborne operations need to originate from ships. By 
exception, air assault operations could be executed from ships, but 
this capability is not expected of general purpose forces and requires 
qualification of pilots and compatible helicopters and ammunition. Army 
aviation units do not routinely train for over-water/shipboard 
operations until assigned that mission. For aviation units with 
assigned over-water/ship-board requirements (like some supporting Korea 
and U.S. Southern Command), the Army provides qualification training 
and equipment. Army aviation simulators include littoral training 
scenarios.
    The Army has organized, equipped, and trained units to support 
force projection from the seas, to include specific units that 
supported port opening, water purification/storage/distribution, and 
logistics-over-the-shore operations. Critical capabilities for 
logistics-over-the-shore operations include command and control; cargo 
documentation; Soldier ``stevedores'' to operate onboard cranes and to 
discharge equipment from strategic ships; waterborne transportation of 
personnel, cargo, and equipment to include the operation of small tugs, 
large tugs, vessels, floating cranes, ``water taxi'' service, floating 
platforms and causeways. Army training ensures these units are 
technically and tactically ready for employment when needed by 
combatant commanders. U.S. Transportation Command joint logistics-over-
the-shore exercises provide an important training venue where these 
Army units can operate doctrinally in littorals as part of an 
interdependent joint team. There is a joint logistics-over-the-shore 
exercise in Morocco with U.S. Africa Command during the April-May 
timeframe and a joint logistics-over-the-shore exercise in Korea with 
U.S. Pacific Command in the Mar-Jun timeframe. The Army is also 
exploring with U.S. Transportation Command opportunities to integrate 
air borne forcible entry capabilities into a theater entry exercise.
    Mr. West. Myself and a number of my colleagues are concerned about 
so-called invisible wounds, such as Traumatic Brain Injury. What can 
you tell me about the Department of the Army's efforts with Hyperbaric 
Oxygen Therapy (HBOT) and Cognitive Stimulation?
    Secretary McHugh and General Casey. The Army is evaluating the use 
of hyperbaric oxygen for the treatment of persistent mild TBI symptoms. 
There is a multi-center study underway that will evaluate Active Duty 
military men and non-pregnant Active Duty military women who are 
residing in the United States. The military personnel in the study have 
been deployed one or more times and have been diagnosed with at least 
one mild brain injury with persistent symptoms. The study is being 
conducted at Fort Gordon, Fort Carson, Camp Lejeune and Camp Pendleton 
with research staff assistance from the Denver VA Medical Center and 
Salt Lake City LDS Hospital. It is important to note, however, that the 
use of hyperbaric oxygen to treat traumatic brain injury (TBI) is 
currently not approved by the Food and Drug Administration. Some 
civilian medical practitioners are using it as treatment for patients 
with brain damage from stroke, sports injury and trauma including 
chronic symptoms from mild traumatic brain injury.
    The Army is providing Cognitive Rehabilitation Therapy (CRT) to a 
large number of Soldiers with TBI and the Department of Defense (DOD) 
is actively studying its effectiveness. CRT interventions for Service 
members are available at DOD Military Treatment Facilities, through the 
Supplemental Health Care Program, and through VA programs. CRT is a not 
a single therapy as the name suggests, but a collection of individual 
treatment strategies, such as cognitive stimulation, that are designed 
to improve problems with memory, attention, perception, learning, 
planning and judgment brought about by a traumatic injury to the brain.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MRS. ROBY
    Mrs. Roby. During the testimony, it was stated ``As we continue to 
build dwell and increase the time Soldiers have at home, more units 
will conduct full spectrum training rotations at the Combat Training 
Centers.'' To be fair to Soldiers and Families, can the dwell time 
ratio be modified to reflect time not spent at home station so that it 
better represents the amount of time that the Soldier is able to be at 
their home station?
    Secretary McHugh. The current dwell time ratio was designed to 
account for significant, high-stress events that could have physical 
and psychological impacts on individual Soldiers. While time away from 
home station and family for any event can be stressful, routine 
training events are not likely to have the same impact on individuals 
as combat deployments.

    Mrs. Roby. In light of the Army budget allowing for $1.5 billion in 
adding 71 UH-60M/HH-60M Black Hawk helicopters, $1.4 billion to procure 
32 new and 15 remanufactured CH-47F Chinook helicopters, and $1.04 
billion to modernize the AH-64 Apache helicopter: What are the fielding 
plans for another UH-60M simulator and another Transportable Black Hawk 
Operations Simulator (TBOS) system for Fort Rucker, AL? Additionally, 
what impact will modernization of the UH-60 (Black Hawk), CH-47 
(Chinook), and AH-64 (Apache) helicopters have on the USAACE's ability 
to meet their mission goals in regards to training, maintenance, and 
facilities?
    General Casey. The United States Army Aviation Center of Excellence 
(USAACE) is slated to receive its third Transportable Black Hawk 
Operations Simulator (TBOS) by the end of FY11. The third TBOS will be 
operational no later than 1 OCT 11 in order to support the FY12 
training requirement. USAACE will receive three UH-60M simulators by 
midyear 2013. To date, USAACE has received 10 CH-47Fs and will receive 
4 additional CH-47Fs in 3rd and 4th quarter FY11. Every time we receive 
a CH-47F, we are required to turn in a legacy CH-47D to the 
remanufacture line. Currently, USAACE has 28 UH-60Ms on hand and is 
scheduled to receive 6 additional this year with an end state of 34 on 
hand for FY11. Due to the large training demand for the UH-60A/L, 
USAACE has not been required to turn in any legacy UH-60s to the 
remanufacture line. The first arrival of AH-64D Block III helicopters 
is tentatively scheduled for FY14. USAACE will be required to turn in 
legacy AH-64Ds on a one for one basis with the Block III's. The 
fielding of modernized aircraft will not impact USAACE's mission goals 
in regards to training, maintenance, and facilities. Coordination has 
been conducted with Headquarters Training and Doctrine Command and all 
USAACE elements to insure timely integration of new aircraft to 
mitigate any training issues.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BROOKS
    Mr. Brooks. During the March 2, 2011, hearing you discussed the 
MEADS (Medium Extended Air Defense System) program with Rep. Franks and 
Rep. Hunter.
    a. You mentioned that MEADS was ``underperforming''. Can you 
explain in what ways the systems is underperforming?
    b. You also mentioned that MEADS was not close to completion. What 
was the original schedule for completion? How far behind is the 
program?
    c. Is the additional $804 million over the next two years intended 
to wind down the program or complete the program?
    d. How will ending the program affect our German and Italian 
partners in their development of MEADS? What inputs have you had from 
Germany and Italy on MEADS?
    Secretary McHugh. a. The MEADS' underperformance has been in the 
areas of cost and schedule, with additional concerns on oversight, 
program management, and systems engineering. The Proof of Concept was 
designed to markedly reduce the risk of the remaining Design and 
Development work. It should be noted that since the MEADS independent 
review in 2008, there have been improvements in oversight, program 
management, and systems engineering in the MEADS program, although cost 
and schedule growth continue. By choosing to not pursue development of 
the full MEADS system, and to refocus the program as a Proof of 
Concept, the higher-risk integration and testing efforts included in 
the full scope program have been removed, resulting in substantially 
lower cost and schedule risk.
    b. The original Design and Development program schedule was 
established as a 110 month effort, which is approximately 71 percent 
complete. The effort was originally to be completed in October 2013. 
However, in 2010, the Partners and the NATO MEADS Management Agency 
(NAMEADSMA) determined that an additional 30 month effort was required 
to recover from delays in the program and to add Partner desired 
capabilities. These changes would have extended the total program 
effort to 140 months, with completion in March 2016.
    c. The $804M will wind down the program.
    d. Completing the Proof of Concept will enable our MEADS partners 
to field coalition missile defense capability. We believe that our 
collective work under the Proof of Concept offers significant benefits 
for all three MEADS partners, builds partner capacity in Air and 
Missile Defense, and will position Italy and Germany to continue future 
development, production, and fielding. Our MEADS partners have informed 
us that they intend to field MEADS capability in some form.
    Mr. Brooks. If we are to end MEADS and harvest technology from the 
program in the future for other missile defense systems: Which 
technologies are you expecting harvest? What other systems do you 
expect to use the harvested technology? Are you expecting to use the 
MEADS 360 degree radar in the Patriot system? What are the expected 
costs of the integration of MEADS technology into legacy and future 
missile defense systems?
    Secretary McHugh. The technology benefits are likely to be at the 
subsystem level, which makes it unfeasible to estimate the costs at 
this time. Some of the more attractive technologies from the U.S. 
perspective are contained in radar developments for the 360 degree 
surveillance radar. As part of the Proof of Concept approach, the U.S. 
expects to receive technical data packages providing detailed 
technology information. The U.S. will evaluate the potential 
incorporation of the MEADS technology in existing or future systems 
over the next several years as that data becomes available.
    Mr. Brooks. Can you provide the committee with the cost comparison 
between fully completing the MEADS program and harvesting the 
technology for legacy and future systems?
    Secretary McHugh. The cost comparison for completing the U.S. share 
of the MEADS design and development is approximately $2.8B in FY12-17, 
while the Proof of Concept will cost approximately $804M in FY12 
through FY13, and may lead to harvesting technology. This does not 
include procurement costs for a full force of MEADS major end items, 
which would require additional funds beginning in FY13 and extending 
through FY30.

                                  <all>

</pre></body></html>
